<html>
<title> - CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                                ------                                
        CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM

=======================================================================

                                (110-65)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             AUGUST 2, 2007

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure

       CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM

       CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM

       CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM

       CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM

       CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM

       CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM


 
        CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM

=======================================================================

                                (110-65)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 2, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
37-368                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Allegretti, Thomas, President, American Waterways Operators......    53
Allen, Admiral Thad, Commandant, United States Coast Guard.......     7
Block, Richard, Secretary Gulf Coast Mariners Association........    38
Cox, Joseph, President, U.S. Chamber of Shipping.................    53
Doyle, William, Director of Government Affairs and Deputy General 
  Counsel, Marine Engineers' Beneficial Association..............    38
Lauridsen, Peter, Passenger Vessel Association...................    53
Quick, George, Vice President, International Organization of 
  Masters, Mates and Pilots......................................    38
Thompson, B.W. Tom, Executive Director, U.S. Marine Safety 
  Association....................................................    53
Weakley, Jim, President, Lake Carriers Association...............    53
Wells, Ken, President, Offshore Marine Services Association......    53

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Mitchell, Hon. Harry E., of Arizona..............................    67

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Allegretti, Thomas A.............................................    71
Allen, Admiral Thad W............................................    78
Block, Richard A.................................................   247
Brown, Timothy A.................................................   281
Cox, Joseph J....................................................   287
Doyle, William P.................................................   292
Lauridsen, Peter.................................................   297
Thompson, Burt W.................................................   302
Weakley, James H.I...............................................   307
Wells, Ken.......................................................   312

                       SUBMISSIONS FOR THE RECORD

Allen, Admiral Thad, Commandant, United States Coast Guard:

  Response to question from Rep. Cummings........................    14
  Response to question from Rep. Cummings........................    16
  Response to question from Rep. Cummings........................    18
  Response to question from Rep. Cummings........................    20
  Response to question from Rep. Cummings........................    22
  Response to question from Rep. LaTourette......................    24
  ``Explosive Handling Team Supervisor,'' Performace 
    Qualification Standard.......................................    95
  ``Commercial Fishing Vessel Safety Examiner (CFVE),'' 
    Performance Qualification Standard...........................   110
  ``Container Inspector,'' Performance Qualification Standard....   140
  ``Federal On Scene Coordinator Representative,'' Performace 
    Qualification Standard.......................................   162
  ``Maritime Enforcement Investigator,'' Performance 
    Qualification Standard.......................................   179
  ``Pollution Investigator,'' Performace Qualification Standard..   196
  ``Suspension and Revocation Investigator,'' Performace 
    Qualification Standard.......................................   217
  ``Waterways Management Representative,'' Performance 
    Qualification Standard.......................................   232

                        ADDITIONS TO THE RECORD

A Mariner Reponse to the August 2, 2007 Subcommittee on Coast 
  Guard and Maritime Transportation Hearing, Captain Murray R. 
  Rogers, U.S.M.M., written statement............................   319
Marine Safety Advocate, Ronald G. Sinn, written statement........   324

[GRAPHIC] [TIFF OMITTED] T7368.001

[GRAPHIC] [TIFF OMITTED] T7368.002

[GRAPHIC] [TIFF OMITTED] T7368.003

[GRAPHIC] [TIFF OMITTED] T7368.004

[GRAPHIC] [TIFF OMITTED] T7368.005

[GRAPHIC] [TIFF OMITTED] T7368.006

[GRAPHIC] [TIFF OMITTED] T7368.007

[GRAPHIC] [TIFF OMITTED] T7368.008

[GRAPHIC] [TIFF OMITTED] T7368.009

[GRAPHIC] [TIFF OMITTED] T7368.010

[GRAPHIC] [TIFF OMITTED] T7368.011



  HEARING ON CHALLENGES FACING THE COAST GUARD'S MARINE SAFETY PROGRAM

                              ----------                              


                        Thursday, August 2, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. Good afternoon.
    Earlier this week, the Subcommittee examined the management 
of the Coast Guard's administrative law system which 
adjudicates allegations of misconduct or negligence brought 
against mariners by Coast Guard investigating officers. We 
heard testimony that was, frankly, deeply concerning and 
disturbing. Two former administrative law judges suggested that 
during their tenure they worked in an atmosphere that did not 
support the exercise of judicial independence in the 
consideration of cases.
    The Subcommittee's examination of the allegations raised in 
that hearing is not finished. However, any administrative law 
system must not only ensure that there is no impropriety in the 
conduct of administrative proceedings but that there is not 
even the appearance of unfairness in the system.
    What we learned during our hearing on Tuesday has led me 
and I believe Ranking Member LaTourette to conclude that the 
administrative law system that examines allegations made 
against mariners should be separated from the Coast Guard as a 
safeguard against the appearance of unfairness.
    Our hearing today builds on Tuesday's hearing by giving the 
Subcommittee the opportunity to take a comprehensive look at 
the Coast Guard's entire marine safety program to assess 
whether the Coast Guard has the experience, the expertise and 
the resources it needs to effectively and efficiently implement 
this crucial program. In addition to investigating allegations 
of misconduct raised against mariners, the marine safety 
program is responsible for investigating accidents, inspecting 
vessels and issuing credentials to mariners.
    In short, the marine safety program is intended to ensure 
that all aspects of marine transportation are as safe as they 
can be and that our natural resources are protected against 
risks associated with the movement of goods and people on the 
water.
    I want to thank Chairman Oberstar for his extraordinary 
leadership in the area of marine safety, and I thank him for 
urging us to hold this hearing today.
    I also thank Ranking Member Mica and the Ranking Member of 
our Subcommittee, Mr. LaTourette, for their leadership on this 
Committee and for their cooperation.
    Congress has been involved with maritime safety since the 
first Congress created the lighthouse service on August 7th, 
1789. Congress has repeatedly expanded maritime safety programs 
over the past 200 years as ships and shipping practices have 
evolved.
    Unfortunately, over the years, Congress' actions to enhance 
marine safety have usually been spurred by major catastrophes 
such as the grounding of Exxon Valdez which led to the 
enactment of the Oil Pollution Act of 1990.
    Our goal is to examine the state of the marine safety 
program to assess whether action needs to be taken now to 
strengthen this program and to ensure it is prepared to 
effectively and efficiently regulate the 21st Century maritime 
industry before any new catastrophe takes place.
    Since I became Chairman of the Subcommittee, I have heard 
repeatedly from ship owners and operators, port authorities 
including the Port of Baltimore and mariners regarding their 
concerns with the Coast Guard's marine safety program. Mariners 
are concerned about the delays they encounter in obtaining the 
documents they need to work while ship owners have expressed 
serious concerns about the ability of Coast Guard personnel to 
maintain their expertise in technical aspects of vessel safety, 
given their increasing focus on implementing security measures.
    The suggestion that the Coast Guard's lack of technical 
expertise may have contributed to fatal accidents is extremely 
troubling. We will examine the issue in depth as we examine the 
Coast Guard's response to several recent accidents including 
the capsizing of the Lady D pontoon boat in Baltimore's Inner 
Harbor in March, 2004, that resulted in the deaths of five 
passengers.
    During its investigation of this very tragic accident, the 
National Transportation Safety Board found that the Lady D was 
``erroneously granted sister status by the United States Coast 
Guard to a pontoon vessel with different design 
characteristics.''
    The NTSB then recommended that the Coast Guard promulgate 
revised passenger weight standards for passenger vessels. 
Unlike the FAA, which quickly adopted new weight standards in 
less than a year after a commuter aircraft casualty in January, 
2003, the Coast Guard has now issued interim weight guidelines 
and revised operating standards, but some three years later 
after the Lady D tragedy has not yet finalized new weight 
standards for all passenger vessels.
    The testimony submitted by Admiral Allen today indicates 
that, in fact, the Coast Guard has 85 rulemaking processes 
including some mandated by Congress that have not yet been 
concluded including those involving ballast water, dry cargo 
residue, salvage, towing vessel inspections, the use of 
automatic identification systems, transponders, and the use of 
electronic charts that were required by law to be in vessels by 
January 1st of this year.
    In advance of today's hearing, we asked the Coast Guard, 
mariner representatives, vessel operators, lifesaving equipment 
manufacturers and related service facilities to tell us how the 
marine safety program is working. The industry witnesses, we 
will hear from today, have all expressed concern about the 
Coast Guard's appropriate posture towards mariners and the 
industry, the Coast Guard's level of technical expertise, the 
oversight of lifesaving equipment and the rotation of personnel 
in the marine safety program.
    While I look forward to the testimony of all who are 
joining us today, I also want to note for the record that there 
were many in the maritime industry who expressed concerns to 
this Subcommittee but who were frankly, and this alarms me 
greatly and it should alarm all 435 Members of this Congress 
and all 100 Senators and certainly to the Admiral.
    Let me say that again. They were concerned and basically 
afraid to testify for fear of retribution from the Coast Guard, 
and that is very, very troubling. Such a situation is simply 
intolerable, and I hope that Admiral Allen will take away from 
today's hearing an understanding of what the Service needs to 
do to improve its relationship to our Nation's maritime 
industry.
    The American public believes the Coast Guard is keeping 
vessels safe and protecting the marine environment. Today, we 
will determine whether these expectations are indeed being met, 
and I look forward to working with Chairman Oberstar, Ranking 
Member Mica and Ranking Member LaTourette as we explore the 
future of this important program.
    With that, I am very pleased to again yield to my good 
friend and one who, as I said to him the other day, we are just 
so proud of what we were able to do with regard to Deepwater to 
be able to get a unanimous vote, 424 to nothing, but we could 
not have done it without the cooperation of my distinguished 
colleague, the Ranking Member, Mr. LaTourette.
    I yield to you.
    Mr. LaTourette. Thank you very much, Mr. Chairman, for 
those words, our continued excellent partnership and for 
conducting today's hearing.
    The Coast Guard is a multi-mission agency with technical 
program expertise, extensive law enforcement authority and the 
operational assets needed to carry out that authority. However, 
none of these missions are as important as its marine safety 
function. The Coast Guard's marine safety function includes the 
inspection of vehicles and credentialing of seaman. These jobs 
carry out the Service's primary duties under Title 14 to 
enforce and administer Federal laws and promulgate regulations 
for the promotion of safety of life and property at sea.
    Internationally, the U.S. is party to the International 
Maritime Organization Convention on the Safety of Life at Sea. 
The Coast Guard is the head of the U.S. delegation to IMO. The 
Coast Guard implements its marine safety authorities by setting 
and enforcing standards for the construction and operation of 
U.S. vessels and the competence and reliability of the U.S. 
seamen.
    It also exerts U.S. port control by examining foreign 
vessels and seamen to ensure that those vessels and seamen meet 
international standards. The Service has broad powers to 
enforce its marine safety mandates including the ability to 
prevent a ship from entering or leaving a port and the 
suspension and revocation of the merchant mariners' 
credentials.
    Public concern and current events have always dictated 
which of the Service's missions receive additional attention 
and emphasis in the form of increased mission personnel, 
operating hours and resources. In fact, over the Coast Guard's 
history, the Service's missions have changed many times to meet 
the pressing needs of the Nation.
    In the early days of the Republic, the need for fiscal 
stability led to the establishment of the revenue cutter 
service, the earliest precursor of today's Coast Guard in the 
18th Century. The spectacular loss of steamboats, their 
passengers, crew and cargos during the 19th Century led to the 
establishment of the Steamboat Inspection Service.
    In the last two decades of the 20th Century, drug 
interdiction was the focus in the late 1980s. Marine safety and 
environmental protection were prominent after the Exxon Valdez 
accident in 1990, and migrant interdiction captured the 
public's attention after the Mariel Boatlift. Clearly, in the 
21st Century, increased attention has been paid to the Coast 
Guard's homeland security missions.
    These shifting priorities have shown that having a single 
maritime law enforcement response agency with broad subject 
matter expertise, comprehensive enforcement authorities and 
operational assets works well and provides the necessary 
flexibility to meet changing needs. Of course, the recent surge 
in homeland security missions has led some to express concerns 
that marine safety is getting shortchanged.
    I look forward to the witnesses' testimony today about how 
we can assure that marine safety gets the attention it deserves 
within a multi-mission Coast Guard. I am particularly 
interested in hearing about the ways to create and preserve 
sufficient technical expertise within the Service to carry out 
ship inspections and mariner credential reviews efficiently and 
effectively.
    Again, Mr. Chairman, my personal thanks to you for calling 
today's hearing.
    Mr. Cummings. Thank you very much.
    Mr. Bishop, who, just so the world will know, was just 
named the Vice Chairman of this Subcommittee, I yield to you.
    Mr. Bishop. Thank you very much, Mr. Chairman, and I am 
honored to have the opportunity to work with you in this 
Committee.
    Let me start by commending all of the first responders and 
the volunteers who are now working tirelessly to help those 
affected by the collapse of the bridge at Interstate 35W.
    Mr. Chairman, let me thank you for holding this hearing and 
inviting these witnesses to participate in this important 
discussion. This discussion between the Congress and the Coast 
Guard and the representatives of the maritime transportation 
sector is both necessary and important given the requirements 
of protecting America in a post-9/11 world.
    Once again, I must commend the United States Coast Guard 
for their hard work and constant vigilance in the waters off 
our shores. At every opportunity, I want to make sure that the 
men and women who serve in this top-notch institution receive 
the gratitude and recognition they deserve. Whether it is 
through search and rescue or policing of our waters, they do a 
great job.
    However, the issues and concerns which occasion this 
hearing are real and require careful scrutiny. The Coast Guard 
has a tremendous array of responsibilities requiring a wide 
range of expertise. These responsibilities include coastal and 
waterway security, drug interdiction, migrant interdiction, 
defense readiness, maritime safety, search and rescue, marine 
resource protection, environmental protection, maintaining 
navigation aids and ICE operations. This is, to say the least, 
a tremendous undertaking.
    In my own district, I remain very concerned about the 
additional burdens that will be placed on the Coast Guard to 
protect and secure a proposed LNG facility. The Captain of the 
Port has outlined the manpower and equipment resources that 
will be required, but there has been no determination as to how 
these resources will be acquired or funded.
    The situation is my district is but a fraction of a much 
larger national problem as more than 40 LNG facilities are 
proposed for construction, and the Coast Guard will have 
responsibilities for all of them.
    The United States Coast Guard is a first-rate organization 
and does outstanding work. It is my hope that through an open 
process and full debate, we can determine what the needs are 
and what the Coast Guard's responsibilities should be to 
protect America and preserve our waterways.
    I look forward to the perspectives of our panelists, and I 
yield back. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman, for conducting this 
hearing, you and the gentleman from Ohio.
    Each of us, I believe, Mr. Chairman, holds the Coast Guard 
and its distinguished service to our Nation in the highest 
regard. I will admit I am somewhat subjective. As a former 
member of the Coast Guard and the Coast Guard Reserve, I am 
very proud of America's oldest continuous seagoing service.
    For this reason, I appreciate the Chairman calling this 
hearing because despite each of our best efforts, there is 
always room for improvement.
    It is my opinion, Mr. Chairman, that the Coast Guard is 
unique, among other reasons, because of its structure and 
flexibility. On a daily basis, Coast Guard men and women focus 
upon drug interdiction, environmental protection, migrant 
interdiction, port security, search and rescue, homeland 
security and maritime safety.
    In fact, we would be remiss if we did not recognize that 
this coming Saturday, the Coast Guard's birthday, by the way, 
there will be a ceremony held to recognize that the Coast Guard 
has been involved in rescuing more than one million persons 
since its inception in 1790.
    Because of this tradition and storied history, I believe it 
is important that we tread lightly with regards to today's 
hearing topic. If the result of this hearing is an effort to 
compromise the multifaceted nature of the Coast Guard, Mr. 
Chairman, this causes me some concern.
    Instead, I hope it will provide an opportunity for all 
stakeholders to voice their respective concerns, provide 
constructive feedback and work together to improve the marine 
safety aspect of the Coast Guard.
    It is my firm belief, Mr. Chairman, that we are blessed 
with the world's best Coast Guard. I don't believe a good 
purpose would be served in attempting to create or invent a 
second Coast Guard.
    With that, I yield back the balance of my time.
    Mr. Cummings. Mr. Coble, before I call on Mr. Young, let me 
just say this, that there is nothing that you just said that I 
disagree with. I think that any person or any entity that is 
not constantly self-examining is bound to run into trouble.
    We just want to make sure we take a look at what we are 
doing and take a look at how effectively and how efficiently we 
are doing it so that we can continue, so that when you and I 
are dancing with the angels, we will still have the great 
organization that we have in the Coast Guard.
    With that, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman, and I do appreciate 
your comments as well as those of the gentleman who spoke 
before me.
    A little history about the Coast Guard in the sense of new 
history: We created the Department of Homeland Security, and I 
was Chairman of this Committee. We were down at the President's 
office with all the other cabinet members and Members of the 
body.
    I spoke then and I said I prefer the Service remain with 
the Department of Transportation. Then they showed me the flow 
chart and they had the Coast Guard under Border Patrol.
    Very frankly, with the help of Mr. Oberstar, the Chairman 
now, we said you won't have a bill if you try to dismantle the 
Coast Guard.
    I am interested in this hearing. I do think the one problem 
the Coast Guard may be having in this marine safety regulatory 
arena is the lack of resources. I have had the privilege of 
serving in this House for 35 years, and I have watched us put 
additional burdens on the Coast Guard without really funding 
them as they should be funded.
    I think it is our responsibility if we find that the marine 
safety regulatory functions are not adequately done, let us 
find out why and let us fix that problem because you don't fix 
a problem by transferring the problem into another agency.
    To weaken this agency, the Coast Guard, by dismantling it 
or attempting to dismantle it would discredit what we did when 
we created Homeland Security because if you look at that flow 
chart now, right straight across, Secretary, Coast Guard. The 
Admiral is right next to it, and that gives them the ability to 
fulfill their missions.
    If I sound a little bit interested in this, as Mr. Coble 
has mentioned, we have the most active Coast Guard unit, I 
believe, in the United States in Alaska. We deeply relish your 
participation, Admiral, search and rescue primarily and all the 
other things you do for the State of Alaska.
    And so, I am here today to hear and to hope if there is a 
problem that we address it and solve it within the House which 
we represent.
    With that, I yield back the balance.
    Mr. Cummings. Thank you very much, Congressman Young.
    Admiral Allen, welcome.
    Mr. Baird, did you have an opening statement? Thank you.
    Admiral Allen, it is good to see you back. You have been 
very busy. It is good to have you back, and we will now hear 
from you.

  TESTIMONY OF ADMIRAL THAD ALLEN, COMMANDANT, UNITED STATES 
                          COAST GUARD

    Admiral Allen. Thank you, Mr. Chairman, Representative 
LaTourette, Members of the Committee. I want to thank you for 
the opportunity to testify here today, and I am pleased to 
discuss the Coast Guard's marine safety programs and 
responsibilities.
    Mr. Chairman, this is the right hearing at the right time. 
Let me compliment your staff on the detailed background paper 
prepared for this hearing. The paper raises important issues, 
and with your permission I will provide detailed responses for 
the record.
    Let me acknowledge up-front that catastrophic events such 
as the Marine Electric, El Toro II, Miss Majestic and the Lady 
D have identified key points of system, organizational and 
personnel failures in both industry and in government, and we 
need to learn from that.
    We should also acknowledge that there has been a 
significant increase in the overall safety performance of the 
maritime transportation system in the last two decades, many of 
it due to legislation passed by this Congress such as the Oil 
Pollution Act of 1990.
    While maritime safety is the focus of today's hearing, 
resource has been mentioned repeatedly, and this is a program 
area that highlights an enduring challenge for the Coast Guard. 
The challenge is the ability for the Coast Guard, or any 
Federal agency for that matter, to adapt statutory authorities 
accumulated over a long period of time to a changing external 
environment that changes agency governance structures, 
operating procedures and human resource development.
    Moreover, this adaptation is taking place in the context of 
globalization, rapid changes in technology and maritime 
transportation--LNG would be an example of that--and increasing 
public transparency and accountability. This hearing is 
intended to do that today, and I congratulate you on it.
    My testimony for the record contains a more detailed 
discussion of our maritime safety program, its history and 
current issues, and I ask that it be submitted for the record.
    Mr. Cummings. It is ordered.
    Admiral Allen. I will address a few key points and will be 
happy to answer any questions you have for me.
    Let me start by saying I believe there is a general 
agreement on the current issues facing the Coast Guard. I have 
talked to my industry counterparts. Mr. Chairman, we have 
discussed this and have proposed that developing a consensus on 
a way forward should be our mutual goal.
    The Coast Guard is addressing a number of challenges in 
executing our marine safety mission, but the most important in 
my view are the capacity and the competency of our workforce at 
a time when demand for our maritime safety services has never 
been higher.
    As Commandant, I am most concerned about the following: 
marine inspector training, qualification and staffing; merchant 
mariner licensing and documentation; and Coast Guard 
rulemaking. Before discussing these challenges, let me just 
take a moment to provide some context.
    The Coast Guard's maritime safety program has been informed 
by more than two centuries of maritime experience. The Coast 
Guard formally assumed maritime safety duties in 1946.
    Since then, we have conducted more than 1.7 million 
domestic vessel inspections and credentialed more than 7.5 
million merchant marines. We have also conducted more than 
280,000 examinations on foreign vessels since the start of our 
Port State Control Program in 1994.
    Because of this, we benefit from the largest, safest and 
most efficient maritime transportation system in the world, one 
that has grown by some 18 percent over the last 10 years and 
will only continue to grow. We are committed more than ever to 
meeting our obligations and responsibilities to the maritime 
industry.
    Our services at the port level are primarily focused on our 
marine inspection program. However, we do have centralized 
vessel documentation and plan review and are in the process of 
centralizing merchant mariner licensing and documentation. We 
also maintain a cadre of highly experienced traveling 
inspectors who perform specialized inspection duties worldwide 
and serve as a center of excellence for our inspection program.
    Rulemaking is a headquarters function.
    We recently unified all port operations into sector 
commands. As the Coast Guard senior officer at the port level 
within their respective geographics areas, sector commanders 
are charged by statute and regulation as the Captain of the 
Port, officer in charge of marine inspection, Federal on-scene 
coordinator for oil and hazardous material spill response, 
Federal maritime security coordinator and search and rescue 
mission coordinator.
    This unification of command and control at the port level 
was driven primarily by industry needs. Our sector commanders 
provide a single voice to address all matters of interest to 
the maritime industry, a one-stop shop. They also play a vital 
role in coordinating and integrating maritime activities and 
interests among the Federal, State and local partners.
    The Coast Guard listened to our stakeholders, and we 
responded. Sectors unify all Coast Guard competencies under one 
roof and one leader. This operational model allows the most 
rapid and effective response to maritime incidents and 
facilitates the closest coordination among preparedness, 
prevention and response activities.
    Let me talk about inspections. In my first year as 
Commandant, I visited every district in the Coast Guard. I 
spoke with thousands of Coast Guard personnel. The single most 
recurring theme at the port level was concern for the level of 
staffing, qualifications and tour length for our marine 
inspectors, and I have taken this for action.
    In the last year, I have directed significant changes and 
improvements in the training and qualifications of our 
inspectors to keep pace with the technological advancements and 
growth in maritime industry. We have made changes to our 
warrant officer selection system to bring more talented and 
experienced enlisted personnel into the maritime safety 
specialty.
    We have learned valuable lessons from joint military and 
civilian staffing of our sector command centers and our vessel 
traffic services. These are areas where we used to have Coast 
Guard personnel only staffing. We now have brought civilian 
personnel in to provide continuity, corporate memory and way to 
bridge during the transfer season, so we get the best of 
training for our people in uniform by maintaining continuity of 
services.
    I am committed to the establishment of more civilian 
positions in the marine inspection field. We need people with 
critical job skills. We need to maintain continuity while 
providing our military members access to this type of 
experience. We must leverage and expand this dual staffing 
model.
    Getting the inspection program right in terms of training, 
qualifications and staffing is my highest maritime safety 
priority.
    Let me discuss rulemaking very quickly. The Coast Guard 
currently has sufficient legal authority, subject matter 
experts, legal staff and extensive experience with the 
Administrative Procedures Act to develop and issue necessary 
regulations. We lack capacity.
    Legislative mandates have increased our rulemaking backlog 
substantially since 9/11. Additionally, many of our rulemakings 
require extensive economic, environmental and policy analysis 
to meet current legal and administrative requirements. The 
result has been a backlog that is unacceptable to me, our 
stakeholders and our overseers.
    This is purely a resource issue, and I have directed my 
staff to do an analysis of the resources required and any 
policy changes needed to significantly improve our throughput.
    Let me discuss merchant mariner licensing and 
documentation. The Coast Guard has taken aggressive steps to 
improve merchant mariner licensing and documentation. 
Centralization of application processing will provide greater 
opportunity to focus on our efforts and gain economies of scale 
while reducing backlogs, ensuring credentials are only issued 
to qualified persons and ensuring uniformity in interpretation 
of the regulations.
    Transferring these functions from the field regional exam 
centers throughout the Country will take place over the next 
two years. The implementation of the Transportation Worker 
Identification Credential and continued growth and demand for 
merchant mariner credentials presents a challenge to the 
program.
    The timing of the National Maritime Center restructuring, 
however, introduces opportunities to ensure that the TWIC and 
MLD programs work in concert with each other. We are working 
very closely with our partners in the Transportation Security 
Agency to assure that end is met.
    What we must improve is our customer service at the port. 
Automation will improve efficiencies, but mariners must have a 
responsive face to deal with when needed especially during the 
transition period.
    Let me discuss leadership and industry relations. I have 
always believed that unit performance starts and ends with 
leadership. Leadership at the port level, at the district level 
and at headquarters necessarily includes communication with 
stakeholders and the development of shared goals that further 
the safety and security of the maritime transportation system. 
This enhances mission performance and facilitates commerce.
    Near-term demands of maritime security issues have 
appropriately dominated national and port level agendas since 
the attacks of 9/11. I believe now is the time to reassess our 
performance to ensure we remain focused on maritime safety as 
well. I have communicated this intent directly to my field 
commanders.
    I have consulted with numerous former Coast Guard maritime 
safety experts and industry leaders. I believe their 
experiences and perspectives will be critical to guiding us as 
we move forward. The Committee's leadership has been helpful as 
well.
    To better serve me and the maritime industry, I am 
establishing an Assistant Commandant for Marine Safety, 
Security and Stewardship at Coast Guard Headquarters, who will 
serve as my direct contact with industry. That individual will 
be Rear Admiral Brian Salerno, a well known expert in maritime 
safety in the Coast Guard.
    One of his first duties will be to take a holistic look at 
our maritime safety program, specifically those challenges we 
are discussing here today. He will ensure that the Service will 
provide the maritime industry effective, consistent, 
professional service.
    Whether it was by strategic intent, foresight or reaction 
to catastrophic events, the Coast Guard was created and evolved 
to integrate Federal roles at the port level. We have the right 
operational model. There is not a better one in the world. But 
we must become more adaptable to the needs of the Nation and 
our maritime commerce.
    As I said earlier, I believe we agree on the major issues. 
I roger the message the Committee and industry are sending, and 
we are on task.
    In closing, I would caution: Changes in functional 
responsibilities do not solve shortfalls in resources and more 
likely create greater needs.
    The issues to be discussed here today as they relate to the 
Coast Guard tasking and performance evolved in the Departments 
of Treasury, Transportation and now Homeland Security over time 
and under the oversight of Congress.
    The time is right to affirm the Coast Guard critical role 
in maritime safety with an honest assessment of the resources 
required. I look forward to that dialogue, and I would be happy 
to take your questions.
    Mr. Cummings. I thank you, Admiral, very much for your 
statements. As you were talking, I just could not help but 
think about something that Mr. Young said. I want to make it 
very clear, and I think Mr. Coble alluded to it also.
    First of all, let me thank you for agreeing that we need to 
hold this hearing, but I want to make sure that we understand 
that what we are doing is just trying to look at what we have. 
It is like looking in the mirror.
    I remember when my 26 year old was 3, she would say, daddy, 
let us play hide and go seek. Then she would stand in front of 
me, Admiral, and she would put her hand up in front of her face 
and say, you can't find me.
    That is okay for a three year old but not for us. We have 
got to look ourselves in the mirror and figure out exactly what 
it is and be honest with ourselves to do what we need to do.
    This is not an attack on anybody. This is trying to figure 
out where we are. I think you know me well enough to know that.
    Admiral Allen. It is not interpreted as that, Mr. Chairman. 
We are aligned.
    Mr. Cummings. Now let me ask you this. I listened to what 
you just said, and I agree with you. You have heard me say this 
many times. Particularly after 9/11, we saw the Coast Guard's 
responsibilities and duties get stretched, stretched, 
stretched, but we didn't see the money and the resources 
getting stretched.
    I often use the idea of the rubber band. You can stretch, 
stretch, stretch and at some point you are going to break.
    I want you to just help us succinctly. I know you just gave 
your presentation. You made some decisions, as you just went 
through, to address various issues.
    As I look at this group of books here, and these are the 
volumes of the Marine Safety Manual and the code of federal 
regulations dealing with marine safety, I am just wondering 
taking into account what you just talked about and I want to 
see how it fits in.
    How can the Coast Guard personnel who rotate into and out 
of marine safety have the same level of expertise as an FAA 
inspector who spends his whole career inspecting aircraft? Help 
me with how you will plan to deal with that and if there are 
resources that are necessary, what would you need?
    Are you following what I am saying?
    Admiral Allen. Yes, sir, I am. Yes, sir, good question.
    If I could divide it up into what I call capacity and the 
makeup of the workforce, in other words, the human resources 
part of this. Until we get a civilian Commandant, you are 
always going to need people in blue suits that have knowledge 
of these issues, that have worked in them, can deal in policy 
rulemaking, budgetary requests and testify like I am here 
today.
    So we need a blend of workforce that has the right 
competency, the right experience and continuity to provide 
predictability in the service we provide to the maritime 
community, but we also need to be able to bring officers in and 
give them that experience. In my view, that takes a blended 
workforce, and I alluded to it in my statement.
    But the components of that right now are we have enlisted 
people that gain technical skills over their careers, that 
access to warrant officer that make very excellent inspectors. 
They are the ones that are down there, who spend years doing 
this as their enlisted ratings, and then we access these 
warrant officers to lieutenants and lieutenant commanders. That 
is a very, very core bench strength that we have.
    We also need to take a look at where we need to civilianize 
billets. As you know, and the statements allude to this, 
following the merger or movement of the Bureau of Marine 
Inspection and Navigation, we actually had these guys called 
219ers that we brought actually out of the merchant mariner 
community, brought them into the Coast Guard and brought their 
skills.
    They then trained a generation of inspectors who are now 
retiring. I have actually presided at their retirements. We 
need a way to replace that continuity, that corporate memory, 
that skill that retains at the unit while we back that up with 
the warrant officers who have an enlisted background and then 
officers we access from the merchant marine academies and the 
Coast Guard Academy.
    It is a matter of how you blend that to achieve both the 
competency you have to build in your workforce but maintain 
that continuity of service and that corporate memory and the 
ability to deal with that body of knowledge, sir.
    Mr. Cummings. I am going to just use this Empress of the 
North example to try to get to some of the bottom line issues 
and how you see. It sounds like you have looked at this pretty 
carefully, and I guess you are self-examining every day almost, 
trying to figure out exactly how to be more effective and 
efficient.
    But I want to use this just to kind of see how your plans 
would work with us, okay. So just bear with me.
    On May 14th, the passenger vessel, Empress of the North 
grounded near Juneau, Alaska. As you know, over 200 passengers 
were safely evacuated. However, the NTSB reported that the 
Empress of the North was equipped with 22 inflatable life rafts 
and 2 inflatable slides.
    Safety Board investigators were informed that about half 
the launching mechanisms in the life rafts did not operate 
properly. Investigators also learned that while the crew 
attempted to launch the vessel's evacuation slides, they 
inflated upside-down. This resulted in the slides having to be 
manually turned over by crew members.
    So either the Coast Guard did not adequately supervise the 
servicing of these rafts or it didn't adequately oversee the 
installation of the rafts when they were returned to the 
vessel.
    This is what I want to get to: Admiral, was it a lack of 
oversight by the Coast Guard at the service facility that 
serviced the rafts or the lack of knowledge by the Coast Guard 
inspector who inspected the vessel in February of this year 
that caused the lifesaving equipment on the Empress of the 
North to malfunction?
    Do Coast Guard inspectors have the training and expertise 
to determine if an evacuation slide is installed upside-down on 
a vessel?
    Admiral Allen. Yes, sir. Let me give you the basic 
structure by which this equipment is inspected, and there was a 
change in this. I believe it was in 1997. We issued a Federal 
Notice Register that changed our program somewhat.
    What we do is we actually go to the manufacturers and we 
inspect first in class or we do type examinations. So if there 
is going to be a production line of a life raft or something 
like that, our inspector would go make sure the production line 
is producing the articles that meet the required safety 
specifications.
    After that, we do spot checks and we also use third party, 
like underwriter labs or third party verification for the 
actual production.
    The one exception to that are life boats. A life boat is a 
constructed boat not a raft, and we do inspect those at the 
manufacturer facilities ourselves.
    As part of the periodic inspections of these vessels, our 
boarding teams, our inspectors take a look at the various 
safety apparatuses and so forth.
    Regarding the specific slides that are in question, I would 
be happy to answer for the record whether or not that was 
actually checked in the process of that inspection, but we 
normally inspect safety equipment and we have a standard 
checklist that we go through.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T7368.012
    
    Admiral Allen. So the way the rafts were packed, installed 
and inverted, a couple of issues there, one related to the 
servicing of the equipment themselves, whether or not that 
might have been found in an inspection, and I would be glad to 
give you a detailed answer for the record on the inspection.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T7368.013
    
    Mr. Cummings. That is fine, but what I am trying to get to 
is I assume we learned something from that. The Coast Guard 
learned?
    Admiral Allen. We did.
    Mr. Cummings. I guess what I am trying to get to is that 
taking into account all of what you said in your opening, fit 
that problem into making sure that, say, lifesaving equipment 
is correctly serviced and installed.
    What I am trying to get to is how does what you just said 
help to address this and do you think it would adequately 
address it? I guess that is what it is.
    We will go on to Mr. LaTourette.
    Admiral Allen. Let me give you an overview of what has been 
done in the last six months, then offer to give you some 
detailed information for the record.
    Mr. Cummings. That will be fine.
    Admiral Allen. Following the establishment of sectors, we 
thought it was important to make sure that the subject matter 
expertise related to marine inspection, port security and 
environmental response were maintained because we were 
integrating different commands into a single command that is 
the right operational model, as I told you.
    We established a work group last year to take a look at all 
the different jobs that are in a sector and validate training 
and qualifications related to that.
    As a result of that, we have changed the curriculum and the 
syllabus for training our marine inspectors as it relates to 
hull inspection, safety equipment and so forth. We have changed 
the content of the training and the qualifications that our 
inspectors are using based on the technologies they are 
encountering out there at the time.
    I can provide a detailed review of before and after on how 
the safety inspections are being conducted and how that 
training is provided, sir.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T7368.014
    
    Mr. Cummings. Finally, tell us specifically. Mr. Young was 
very kind to talk about resources, and I was glad he did. I 
think that what you have here is a bipartisan group of 
Congresspersons who want to help.
    Tell us, in order for you to carry out the mission that you 
want to carry out and for safety, for this whole program to be 
all that you want it to be, what do you need from us?
    Admiral Allen. Well, I think it is a two-part question, 
sir.
    First of all, I need to give you a staffing model and a 
qualification model. Only we can do that. We are the ones that 
have to look at the task and what do we have now, what needs to 
be changed. We have done that over the last six to twelve 
months and can provide that to you.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T7368.015
    
    Admiral Allen. The second thing is if you have a higher 
level of training and qualifications that you need, then you 
have to have the ability to take time to do that. That starts 
moving into the resource area.
    So there are two drivers on capacity. One of them is 
increased training requirements to make our people competent in 
the new technologies they have to deal with, and the second one 
is workload associated with the changing technology.
    Sir, as you and I have talked before, the vast growth in 
LNG tankers coming to this Country, we have over 40 permits 
that are pending. With the pending towing vessel regulations 
that are coming out, the potential adds 7,000 more vessels to 
our inspection program.
    There is a qualitative aspect to this in how you train and 
maintain the competencies. Then it is how many people you have 
to do it, sir.
    The former, we can do. The latter is a resource discussion, 
sir.
    Mr. Cummings. We received testimony from lifesaving 
manufacturers that some factories haven't seen a Coast Guard 
inspector in over a decade. Do you think that is accurate?
    Admiral Allen. I don't know, sir. If you give me the 
information, we will follow up and answer for the record.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T7368.016
    
    Mr. Cummings. All right. That should be happening, though, 
shouldn't it?
    Admiral Allen. It depends on what the article is. Again, 
the procedure is that we would inspect the first article and 
then after that, if there is an underwriter lab or some 
certification of a third party, that would happen and we would 
do spot checks.
    To the extent there should have been a spot check and it 
was not happening in a particular manufacturer, I would be 
anxious to know that.
    Mr. Cummings. We will get that information to you.
    Mr. LaTourette, thank you.
    Mr. LaTourette. Thank you very much, Admiral. It is good to 
see you again.
    I see that Admiral Salerno drew the short straw and he is 
here two days in the same week.
    Admiral Allen. We rewarded him with a promotion
    [Laughter.]
    Mr. LaTourette. In your opening remarks, you talked about 
tour length. One of the observations being made by some folks 
is that perhaps the marine safety mission is not seen within 
the Coast Guard as a good career path for promotion and other 
things, not where the action is. Do you have an observation 
whether that is accurate or not?
    Admiral Allen. I get questioned at all-hands meetings about 
where we are going with a program, and any time there is a 
program in transition, if you work in that program, you are 
going to wonder what is the impact on me.
    I have been very clear in my communication to the field. In 
fact, I have sent messages to all commands and I actually sent 
a global e-mail to everybody in the Coast Guard, reinforcing 
the value of this mission, where it stands with me and the 
value of this mission inside the Coast Guard mission set. So I 
don't think there is any doubt about what I have communicated.
    Now I am not the only one that sends signals. The greatest 
impact on the morale of our marine inspectors right now is the 
fact this hearing is being held.
    Mr. LaTourette. Do you or does the Service have the ability 
to offer special skill pay or incentive pay for billets in 
certain missions and do you?
    Admiral Allen. We do. Some of it requires legislative 
authorities. Right now, in the officer ranks, it would be 
aviation pay and things like that. At the enlisted level, we 
have the authority to offer incentive pay for special ratings 
and bonuses for re-enlistment, but there is a structure there 
where it can be used.
    Mr. LaTourette. In particular, if there is a weakness in 
the marine safety end of things, do you have the authority or 
did you just say you need statutory authority to do it to 
attract more people on the marine safety side?
    Admiral Allen. I believe there are some things we can do to 
incentivize that, but I think actual pay itself may require a 
legislative authority, but I will check and answer for the 
record if that is okay. That is a good question.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T7368.017
    
    Mr. LaTourette. Thank you.
    There are some folks who are proposing that there be the 
creation of a new Marine Safety Administration, that the marine 
safety mission be removed from the Coast Guard and transferred 
to the Department of Transportation. I think I know your 
answer, but for the record, would you sort of comment on your 
view of a proposal like that?
    Admiral Allen. Well, as I alluded to in my opening 
statement, the evolution of the Coast Guard for over two 
centuries has been one of increasing responsibilities. So the 
people who have the capacity and capacity to operate imports 
and on the water are doing that for the Nation rather than 
different agencies doing it.
    By extension, offshore, NOAA and the National Marine 
Fishery Service do not operate cutters offshore. We do that for 
them and enforce those regulations. It creates a great value to 
the Country.
    But I will tell you beyond that, having been a former 
Captain of the Port in Long Island Sound, the ability to bring 
together response forces, to be able to take control under a 
captain of port authority and direct vessels to anchorage or 
movement of vessels, to be able to bring in technical 
assistance in the form of inspecting officers and marine 
inspectors to inform issues like stability of grounded ships 
and what you should do with a damaged ship, to bring that 
together in one unified command to optimize response for this 
Federal Government, priceless.
    Mr. LaTourette. In both this hearing and the hearing that 
we had on Tuesday on the ALJ business, the Chairman in his 
opening remarks has talked about some information that has come 
to his attention that people are afraid. They are afraid of the 
ALJ system. They are apparently afraid of the marine safety.
    I don't know if I know who those people are, but it 
concerns me to hear the Chairman say that. Could you just 
comment for a moment about what cooperation and/or 
participation level the Coast Guard has with the mariner 
community and do you think there is a reason that people should 
be afraid of the service.
    Admiral Allen. Well, I am not going to attribute a motive 
to somebody else's behavior when I don't sit inside their head.
    I can tell you this and I think it should be apparent to 
the Committee and anybody that has ever known me. I live by a 
couple of rules in my life. One is transparency of information 
breeds self-correcting behavior and anybody that works for me 
has to be able to speak truth to power.
    I will meet with anybody, anywhere and talk about any 
issue. I don't think anybody that has ever known me doesn't 
think that I am approachable as a senior leader, and I have 
directed my field commanders to reach out to the industry.
    We have area maritime security committees that help us 
execute our security duties. We have area committees who help 
us do oil spill response planning. We exercise that. We just 
completed a spill of national significance exercise in the 
Memphis area as a result of the Oil Pollution Act of 1990 
requirements. We are all over the ports, working every day with 
these stakeholders.
    If there is a problem or they feel they can't talk to the 
Coast Guard, then somebody needs to stand up their own height 
to walk in and tell the Captain of the Port that.
    Mr. LaTourette. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cummings. What about telling you? Let me be real clear.
    Admiral Allen. I get e-mails from industry from time to 
time.
    Mr. Cummings. Let me be very clear. Let me be very clear. I 
didn't raise that as something light.
    Admiral Allen. I understand, sir.
    Mr. Cummings. There are probably very few Members of 
Congress that spend as much time making sure that witnesses are 
treated properly. I have said it in the last hearing, and I 
will say it again. I have actually apologized for Members of 
Congress for the way they treated witnesses, so that is very, 
very significant to me because I think it goes to the very 
essence of what we do here.
    Now I understand the question, but I can tell you that 
there were people who were concerned about coming to testify, 
and there may be some in the audience, who were worried that if 
they testified that there might be some type of retaliation at 
some point, not from you--not from you--but I am just telling 
you that. We can act like it doesn't exist, but when I see it I 
am going to raise it.
    Admiral Allen. Yes, sir. I roger the signal. We will look 
into it, sir.
    Mr. Cummings. I am sorry.
    Admiral Allen. I roger the signal. We will look into it, 
sir.
    Mr. Cummings. Yes, I know you will back me up on that.
    Admiral Allen. Yes, sir.
    Mr. Cummings. That was not directed towards you. I want to 
make that clear. As you have heard me say many, many times, I 
have the utmost confidence. But I just wanted to make that 
clear because I think it gets in the way of us doing what we 
are supposed to do up here, and so that is all.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral Allen, good to see you again.
    I have some questions about the Pacific Northwest. There 
are examples cited in our memo, prep memo about the situation 
with our four Steel Electrics and the Washington State ferry 
system.
    I think in fairness the story, if you will, told in the 
prep memo is not a full story of all the issues. It focuses 
strictly on the Coast Guard, but there are many issues around 
the problems that we have with the four Steel Electric ferries 
and the Washington State ferry system: 80 years old, our 
inability to site a new dock, the inadequacy of the current 
terminals in Keystone and Port Townsend to accommodate larger 
ferries and, again, the subsequent inability to site terminals 
in a different place for a variety of reasons, none of which 
have to do with the Coast Guard, I might add.
    I think as far as that goes, there is a bigger story to 
tell. I want to be clear about that. I have talked to your 
local folks on this issue because there has been some press 
around it, not with regards to the Coast Guard but with regards 
to our own State Department of Transportation and what we are 
doing.
    Also, the legislature has a piece of the story. Our own 
legislature has a piece of the story. It is a much bigger story 
than I think what is conveyed herein our prep memo. I want to 
be clear about that.
    With regards to the Coast Guard role, there are I think 
some good questions to ask and are asked in the prep memo. In 
conversations with your folks, they have done a good job of 
being open and clear and transparent about what their role has 
been, but I do have a couple good questions here to ask.
    I do have some questions about how the COI is issued, the 
certificate of inspection, that says this thing is safe to go, 
send her out in the water. A good question is that each of the 
Steel Electrics have received a certificate of inspection 
within the last eight months, and yet there have been some 
cracks in some hulls.
    In fact, the Illahee just came out of dry dock two day ago. 
It was in the water yesterday and got a six inch crack in it 
again, so now it is back in dry dock. I personally think that 
was probably more a function of it being 80 years old as 
opposed to anything else, but can you help me understand that 
process, how a COI gets issued in this kind of circumstance?
    It is important that we have these ferries. We are a little 
ways from replacing them, but they need to be safe as well.
    Admiral Allen. Yes, sir. The issue with the ferries in 
Puget Sound is a real interesting one because it kind of 
highlights some built-in tensions that operate in ports and 
they are natural tensions. There is not a good or a bad. There 
are competing issues, as you noted yourself.
    One of the things that the Coast Guard sees itself as doing 
is being an honest broker in resolving those tensions of which 
there is not a clear black or white answer. It is usually gray 
or plaid or something.
    Now, in this case, these ferries which have been operating 
since about 1927 are getting old. Our inspectors detected a 
real problem with being able to examine the hulls, as you know, 
because they had put cement ballast to make the ferries ride 
better. It got to the point where we didn't feel from the Coast 
Guard standpoint that we could issue a certificate of 
inspection without properly being able to assess the hull and 
could not do that with the concrete in place.
    That resulted in the order being given that the concrete 
ballast had to be removed. That caused several other issues 
related to the timing of the dry docks and then the other 
issues with the damage that was done to the one ferry as a 
result of the dry docks.
    This is one of those things where sometimes it becomes as 
much an art as it is a science. You know what the structural 
issues are with the ship. We know what the needs of the 
community are. We know that when it went down to a one ferry 
service, there was going to be significant impact on the 
community.
    This is one of those cases where you sit down and you 
communicate openly with the Coast Guard. We lay out what the 
requirements are.
    I don't normally quote the press, given the last year or 
so, but I would just like to quote this from the Peninsula 
Daily News: ``Coast Guard safety inspectors in June ordered all 
concrete ballast removed from the Nisqually and three other 
Steel Electric ferry hulls to allow for closer inspections. The 
Coast Guard's Inspection Division Chief ... ''
    This is not the sector commander. This is the guy that is 
empowered, the subject matter expert at that command.
    `` ... John D. Dwyer, had originally set a deadline of 
today to pull the Nisqually if state ferries had not yet 
removed the concrete ballast. However, considering the 
extenuating circumstances, Dwyer allowed the extension.
    `` 'We just wanted to make sure we had two boats to serve 
the community,' said Marta Coursey, State Ferries Director of 
Communications. 'It was a matter of contacting Coast Guard 
officials and saying this is going to put our communities in 
stress.' ''
    These are the day to day issues that we work at the port 
level, and that is the reason it is so important they were able 
to have inspection capability, their issues with traffic 
management, their issues with land management, of the movement 
of vehicles and the queueing of vehicles.
    Sometimes you have to sit down and take a look at what the 
regs say, what is the best safety decision you can make, 
understanding the need to facilitate commerce, and they are 
always the same, sir.
    Mr. Larsen. Can I just have a follow-up, Mr. Chairman?
    To get at one of the concerns that are being brought up, in 
this case, it seems to me, and I don't want to put words in 
your mouth, but this is not a function of whether or not the 
Coast Guard has the capacity to do an appropriate and effective 
marine safety inspection regime.
    Admiral Allen. No. This is a competency issue.
    Mr. Larsen. It is a much more complex issue.
    Admiral Allen. The judgement and competency issue, yes.
    Mr. Larsen. Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    Admiral, my concern is this interest of moving the safety 
part into another agency. In your opinion, how would that 
improve safety, number one, and, number two, wouldn't it be 
better to have the maritime safety regulatories in the same 
service, knowing what one another are doing?
    I have been in this business long enough to know that a lot 
of times agencies don't even talk to one another. That is why 
we created the Homeland Security Bill.
    So if we go back and create a new agency, who will know 
better than this Committee?
    By the way, Mr. Chairman, if that was to happen, it would 
go to the Armed Services or, no, it would stay in 
Transportation and be okay, but it would be a little bit 
different.
    I don't see the improvement here. Again, I like what you 
have said about what you are doing now, and I think that is 
what we have to start pursuing.
    Admiral Allen. Let me give you a microcosm for an answer, 
sir. When I was the Captain of the Port of Long Island Sound 
from 1993 to 1996, I had Captain of the Port authority. I was 
not the officer in charge of marine inspection which is the 
marine safety function. I was covered by an area that was 
basically serviced out of New York.
    I had a tank barge ground off New Haven and two to three 
million gallons of oil in the barge. I had to make decisions 
about controlling the waterway, responding to a potential 
spill, managing the issues associated with that, had to compete 
with another command to have them release an inspector to come 
up and give me technical support.
    Long Island is now a sector and has its own marine 
inspectors assigned to it. If that barge grounds again today, 
the organic capability exists to simultaneously manage the 
waterway, manage a potential spill and how you would manage 
that, and have an inspector there to consult with on structural 
issues related to the disposition of the barge as part of a 
unified command.
    If you can expand that to an agency to agency setting, it 
will become more difficult, sir.
    Mr. Young. You mentioned something about civilian 
employees. One of the things I am interested in is have you a 
cadre of retired inspectors or people who have gone to other 
careers available to you to fulfill the job of inspections?
    Admiral Allen. We don't now, but as part of my earlier 
answer, we have found in other areas, specifically search and 
rescue, search planning at our operations centers and our 
vessel traffic systems, similar to the ones in Valdez and 
Seattle, where we have had issues with turnover and continuity 
especially in summer transfer seasons, that we have taken 
former military and, in most cases, former Coast Guard folks 
and hired them back as civilians.
    So we have a blended workforce of civilians who have 
corporate memory and the young folks that are coming in that 
are getting needed training on how these systems work and 
gaining their competencies. Moving forward, we are going to 
have to take a look at that blended workforce and the number of 
civilians and how we access civilians, but there is no doubt in 
my mind we need additional civilians for the continuity that 
you all have mentioned.
    Mr. Young. The industry itself--and I should know this 
answer--do they have their own inspectors for vessels also and, 
if so, who trains them?
    Admiral Allen. That is a good question, sir.
    Right now, a large portion of those inspections are done by 
classification societies. The largest one in the United States 
would be the American Bureau of Shipping. Quite frankly, they 
access their engineers and inspectors the same way we do.
    I am affiliated, by my status as the Commandant of the 
Coast Guard, with the American Bureau of Shipping. I can tell 
you all the marine industries in this Country right now are 
challenged accessing inspectors, engineers, and people of that 
type of background. With the growing needs we have in the 
Country, the workforce out there that we are competing for is 
small, sir.
    Mr. Young. I have read most of the testimony from the 
future witnesses. I won't be here. But I have not found any 
testimony to say they want to transfer the regulatory safety 
issues to another agency.
    I have seen where some of them are testifying that they 
think there could be more civilian involvement in inspections 
and enforcement of under the jurisdiction of the Coast Guard. I 
guess it has been done before, and it probably could be 
addressed again.
    My interest here, as again I think it is the Chairman's 
interest, is to make sure we have the safest and how do we best 
achieve that. I still think it should stay within the agency 
that has the most knowledge and the most control.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Cummings. Thank you very much, Mr. Young.
    Just one real quick question before we go to Mr. Oberstar, 
how do you suggest we put folk in the pipeline?
    It sounds like we need some folk in the pipeline, getting 
to eventually become a part of that program. I guess you have 
given that some thought.
    Admiral Allen. Yes, sir. We have done that two ways right 
now. One of them is restructuring how we access enlisted folks 
to warrants and warrants into marine safety field. These are 
really folks that have a lot of experience, and they are 
terrific for us.
    The second is a revised curriculum and syllabus on how we 
are actually training the people who are going to our ports 
right now. It took over the last year, we have developed, and 
that is going into effect. That is the information I offered to 
provide you for the record.
    Admiral Allen. We also access folks into the program from 
other maritime universities, Merchant Marine Academy, New York 
Maritime, Cal Maritime and so forth.
    Then the big question before us is if we are going to 
create a civilian cadre to ensure some of the continuity we 
have been talking about here, how do you describe those 
positions? At what level do you do that? Then how do you access 
them in?
    My sense is, as we found out with search and rescue and 
vessel traffic systems, there are plenty of folks out there 
that are ready for a second career that could do that, and I 
think there is an applicant pool waiting, sir.
    Mr. Cummings. Mr. Oberstar.
    Mr. Oberstar. I thank you for chairing the hearing, Mr. 
Cummings.
    I had intended to be here and support this hearing right 
from the very outset, but a matter of a bridge tragedy in 
Minnesota has derailed my day as did the markup that was very 
long and following which I had a news conference. I apologize 
to Members for not being here, but we have an ongoing problem, 
as does the Coast Guard have an ongoing problem.
    Admiral Allen, thank you for your candor, for your 
responsiveness to the proposal that I have offered. If nothing 
else, it has sure mobilized you. You have covered the Country 
from one end to the other. Homeland Security has been in high 
gear ever since this proposal got out on the waterways.
    You have, to a very large degree, intimidated all these 
witnesses who are coming before us today.
    Mr. Young said, well, he said he read the testimony and 
people are not saying establish a separate entity. That is 
because they are damn scared of saying it.
    Let us be candid about it. They don't want to be at sword's 
point with you and those who do the vessel inspections and who 
do the certification of seafarers. Of course, not.
    You know Mr. Young and I were the contrary voices over at 
the White House. The President called the Chairs and Ranking 
Members of the House and Senate Committees to discuss his 
proposal for a Department of Homeland Security.
    I will remember as long as I live Mr. Young saying, don't 
mess with my Coast Guard, a very possessive spirit about it, 
and I backed him up on it. Leave it in the Department of 
Transportation. Don't mess with it.
    Well, it has been co-opted just like FEMA has and with the 
result that one of the witnesses says the face that the 
industry sees on the waterfront is now a distinctly military 
one: guns, boots, an aura of martial law.
    Prior to September 11th, the Coast Guard's proud military 
heritage was softened on the waterfront because it was seen 
first as an organization of seasoned marine safety 
professionals. That is how we have all thought of the Coast 
Guard.
    Today's Coast Guard is a stranger on the working 
waterfront. That is the real spirit of those who are concerned 
about what has happened to the Coast Guard in this era of 
homeland security.
    What I have been concerned about increasingly is that the 
certifications functions, that the expertise of personnel, the 
pool of human resources that are committed to the marine safety 
functions have been diverted. It has been diverted just as FEMA 
was. They sliced off the top 250 personnel, shifting them 
around the Department of Homeland Security, cut of $500 million 
of their budget, shifted it elsewhere within the Department of 
Homeland Security, and then they weren't ready for Katrina.
    Thank God, the Coast Guard was. Thank God, the Coast Guard 
was out there with its helicopters and its surface vessels and 
its skills and expertise in rescuing people.
    Thank God, the President had the good judgment to send you 
down there to the Gulf and set things aright. You did it. It is 
a great tribute to you and a great tribute to the Coast Guard.
    But it is no denigration to the Coast Guard to say that the 
marine safety programs are not necessarily a military function. 
I would like you to describe for me what homeland security 
responsibility is involved in certification of vessels and 
certification of seafarers.
    Admiral Allen. Well, sir, it is not directly a homeland 
security mission, but it is a mission that the Coast Guard has 
accomplished for a number of years. In accordance with Section 
888 of the Homeland Security Act, we were transferred intact 
with all of our missions intact.
    My challenge as the Commandant, my responsibility as the 
Commandant is to execute the missions assigned. That is the 
reason I said in advance of your arrival, Mr. Chairman, that I 
am glad this hearing is being held. It is the right hearing at 
the right time. We are not talking about the competency.
    Mr. Oberstar. You haven't described, you haven't provided a 
link to homeland security and certification of a vessel, 
homeland security and certification of seafarers and 
relicensing of seafarers. There really isn't a direct linkage, 
is there?
    Admiral Allen. Well, sir, I think you could say that the 
safety and the viability of the maritime transportation system 
in this Country is endemic to the infrastructure that the 
Department is responsible for protecting, sir.
    Mr. Oberstar. In a secondary way, yes, but the primary 
function of certification of vessels and the annual safety 
inspection of vessels is not a security function. It is a 
safety function which the Coast Guard is skilled at doing, 
right?
    Admiral Allen. Sir, search and rescue is a safety function. 
I don't see any proposal that that be moved out of the Coast 
Guard, sir. Safety is a broad range of activities.
    Mr. Oberstar. If I had my way, I would move the whole Coast 
Guard right back to Department of Transportation.
    Admiral Allen. I understand that is your position, sir.
    Mr. Oberstar. That is no secret around this town.
    Admiral Allen. Yes, sir. I would say that safety and 
security, as I said many times, are two sides of the same coin. 
You get a benefit for security when you improve safety, and you 
get a benefit to safety when you improve security. Having them 
together does create a synergy, sir.
    Mr. Oberstar. We have seen that same side by side in 
aviation. That is why we created a whole new category of 
personnel to do the security function at airports and not leave 
it up to the airlines who were doing a very bad job of it, 
contracting it out to the lowest bidder.
    Had we continued with that practice, then in the 
Transportation Security Act, we might have moved the FAA over 
to Homeland Security because the airport screeners are 
performing a security function. Well, in fact, that is done, 
but the safety side of FAA stayed. I really don't think that 
bifurcating safety and security was reasonable, but the safety 
side stayed with FAA in the Department of Transportation.
    Another witness says, ``The recently issued documented 
entitled U.S. Coast Guard Strategy for Maritime Safety, 
Security and Stewardship is disappointing in its brevity, 
characterization and direction. Only a single page of the 54 
page charter is devoted to marine safety.''
    That is a powerful statement, isn't it?
    Admiral Allen. Are you looking for a response, sir? I am 
sorry.
    Mr. Oberstar. Yes.
    Admiral Allen. The Maritime Strategy for Safety, Security 
and Stewardship is a top level document that came out of 
something called the Evergreen Process in the Coast Guard that 
was intended to encompass all of our missions. We have missions 
that are in being out there. We have mission that are emerging. 
The security mission is emerging more than the other missions 
right now.
    The actual amount of ink in that strategy which is a top 
level document is not indicative of the base resources in the 
Coast Guard that are applied to these things in our day to day 
operations. It is intended to guide strategy, sir.
    Mr. Oberstar. Well, another example is the longstanding 
inability of the Coast Guard to timely issue licenses and 
merchant mariner documents as required by law. They are 
required by law to have those documents.
    The witness does go on to say that problem predates 
September 11, but it has been exacerbated by post-September 11 
as the Coast Guard in an earlier reference has been committed 
to a more specific law enforcement role rather than a marine 
safety role.
    Admiral Allen. Sir, our merchant mariner documentation has 
been a problem for a long time. I had issues with this when I 
was the Seventh District Commander back in 1999 when we had a 
significant fraud case at our regional exam center in San Juan.
    I have always been in favor of overhauling this process, 
and we are right now. We are automating and centralizing the 
document process. We are going to go to online payments, online 
status of documentation. We are in a two year transition period 
right now.
    I mentioned before you arrived that it is incumbent on me, 
the Coast Guard and the folks that are working out there in the 
port that we sustain the service level and if it is not being 
sustained right now, we have to get it right, sir.
    Mr. Oberstar. Before I arrived, you announced, Admiral, if 
I have it right, that you are proposing the establishment of an 
Assistant Commandant for Maritime Safety and Security.
    Admiral Allen. And Stewardship, sir.
    Mr. Oberstar. And Stewardship.
    Admiral Allen. Yes, sir.
    Mr. Oberstar. Why does security have to be in that? That is 
exactly what all those folks sitting behind you are worried 
about.
    Admiral Allen. Again, sir, if you are operating in a port, 
it is very difficult to disassociate safety and security 
activities because they combine together to provide the 
assurance of the maritime transportation system there, sir.
    Our focus is to have a senior maritime security authority 
in the Coast Guard accessible by industry for all matters 
related to the port, but they will be the individual 
responsible for safety. There is another Coast Guard flag 
officer assigned the responsibility for prevention activities 
who will work for that flag officer. We have a senior executive 
service person that is responsible for standards. At the last 
flag board, we selected two marine safety officers for flag, 
sir
    Mr. Oberstar. But listen to what has happened in FEMA which 
you took charge of and, in effect, ran and put it aright. 
Volunteer fire departments are required in their submission of 
grant applications for firefighting apparatus, for clothing, 
for fire resistant clothing, for pumper trucks to show a 
connection to homeland security.
    Look, the terror on the border in Minnesota is fire. If you 
put security into this safety function, you are just 
compounding the problem. What we need is what we have in the 
FAA, skilled personnel who have years of seasoning, who aren't 
shifted year after year from one post to another with only 
three years on staff.
    Take the example of the Corps of Engineers. They do have a 
military commander. They have a district engineer and the 
division engineers and in each of the districts, there is 
usually a major or lieutenant colonel, and he is there for 
three years and then goes to something else, but the civilian 
personnel stay in place. Why couldn't you do that in the Coast 
Guard?
    Why do you have to have security in marine safety? I think 
that would be a separate function.
    Admiral Allen. Yes, sir. First of all, I am not sure I am 
qualified to comment on homeland security as it relates to fire 
trucks in Minnesota, but I do understand your point, sir.
    Mr. Oberstar. Well, I don't ask you to do that and for your 
own good, you probably shouldn't.
    Admiral Allen. Yes, sir.
    Mr. Oberstar. You will get the Secretary hopping mad. If he 
is mad at me, that is okay, but I don't want him to be mad at 
you.
    Admiral Allen. Yes, sir. Here is what I would propose, Mr. 
Chairman. I roger what you are saying. I roger what the 
industry is saying.
    What I propose is you tell me what is wrong and let me tell 
you the plan to fix it before we go to the more drastic step of 
reorganization and changes because I feel we are competent to 
do this mission. I think there are resources involved. I think 
we can do what you and the Country expect of us, sir.
    Mr. Oberstar. My logic behind this proposition is that we 
will take this function, move it into where it had been until 
World War II, into a civilian department, and then fill those 
spaces with the necessary Coast Guard uniformed personnel that 
you need to carry out all these functions that the Congress has 
given you over the 32 years I have served in Congress and have 
not provided sufficient personnel although we do increase the 
number in the current Coast Guard Authorization Bill which will 
come to the floor right after the August recess.
    We will give you, the Coast Guard, the uniformed personnel 
you need to carry out those functions, do the homeland security 
role and put the civilian function in the Department of 
Transportation where you can have longtime career professionals 
doing that job and keep the enforcement side with the Coast 
Guard.
    Admiral Allen. Yes, sir. I understand your point 
completely, and I am not trying to be argumentative. I would 
just tell you I think we are up to the task.
    Mr. Oberstar. You should be. That is your role. That is 
your responsibility. You are advocating for the Coast Guard. 
You defended yourself well in that document you gave me. I 
understand. That is the purpose of hearings is to have exchange 
of views. I want to hear your views.
    Admiral Allen. Yes, sir. We are ready to be responsive to 
the issues raised by the Committee and industry regarding 
issues on staffing qualification and continuity of marine 
inspectors. We have a plan to move out on that and with a 
blended hybrid workforce that includes more civilians. We are 
competent to do this. We can do it, but it is probably going to 
require some resources.
    Mr. Oberstar. Mr. Chairman, I see we have votes in progress 
here. I thank you for the time.
    Mr. Cummings. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I will be brief.
    Admiral, you have been pretty thoroughly examined today. I 
don't think you have been asked this question. We continually 
hear from the Coast Guard regarding safety and security. Is 
there anything to be gained or lost by separating regulators 
from an enforcement agency?
    Admiral Allen. Well, right now, we can pretty much develop 
a single package for a ship that is entering port regarding 
inspections and boardings that have to be accomplished. What 
you run the risk for when you separate the functions of 
sequential boardings and inspections that we are subjecting the 
ships and vessels that are coming into port to increased burden 
on them and increased time on processing.
    What we ultimately need to do is to unify all of our 
actions in regard to a vessel, both safety and security.
    Now if there is a customer interface issue where people are 
wearing blue uniforms and we need to communicate better with 
industry what we are doing and there is a dockside manner 
issue, we can work with that. I would just say in response to 
an earlier comment, those people that pulled 33,000 people out 
in New Orleans were all wearing blue uniforms.
    Mr. Coble. I thank you, Admiral, and one more question, Mr. 
Chairman.
    I just don't believe we can remove the marine safety 
mission in a smooth, harmonious way. I think it would be 
difficult. Am I right or wrong, Admiral?
    Admiral Allen. I think it would be disruptive, and it is 
already causing morale issues, the fact the hearing is being 
held.
    Mr. Coble. I thank you, Admiral.
    Thank you, Mr. Chairman.
    Mr. Cummings. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. I too will be brief.
    Admiral Allen, nice to see you again. I want to go back to 
this issue that Mr. LaTourette was raising of the rotation 
issue. It seems to be a sore point. I think I can understand 
multiple rotations from the Coast Guard point of view, 
developing breadth of experience and so on, but it also seems 
that the down side of that is that we are constantly putting 
people in frontline positions where they are on a pretty steep 
learning curve.
    And so, my question to you is do you foresee changing the 
rotations for marine safety inspectors and, if you do, do you 
have the capacity to undertake that on your own or do you need 
greater authority?
    Admiral Allen. No. We can look at the rotation policies, 
and that is within my authority to manage. Whether or not it is 
a three, four or five year tour, those are things that I can 
manage.
    I think the real issue is getting what I would call the 
structure of the workforce right, and I mentioned that earlier.
    Mr. Bishop. Do you agree, though, with the assessment of 
some that frequent rotations tend to drive down the level of 
expertise that ought to be present on the frontline?
    Admiral Allen. I think that is true.
    Here is the quandary we are faced with. Sooner or later, as 
you get promoted in the Coast Guard, you become a commanding 
officer. If you get selected for flag, you become a district 
commander and maybe even a Commandant. When you get to there, 
you become a general. You are representing the entire 
organization.
    We have an issue of needing specialists, subject matter 
experts, but at some point we need to generalize these folks 
and give them other experiences if they are going to be 
promotable and move up to become executives in the 
organization. In corporate America, for example, if you are a 
vice president, everybody needs to understand corporate 
finance.
    What we have developed inside the Coast Guard is the notion 
of what we call a broadened specialist. What we need to look at 
is maintaining the subject matter expertise that is critical to 
mission execution and then how we can broaden these people at a 
later date and still make them promotable. They want to be able 
to move up in the organization as well.
    Mr. Bishop. Thank you.
    I have other questions, Mr. Chairman, but I will yield to 
Mr. Taylor.
    Mr. Cummings. Mr. Taylor.
    Mr. Taylor. I thank the gentleman. Thank you, Mr. Bishop.
    Commandant, number one, I empathize with your situation, 
and I want you to know that. I very much appreciate what the 
Coast Guard did after Katrina.
    And, you get thrown a monkey wrench called the 123s. 
Deepwater didn't help. So you have got a lot of challenges, and 
I would not want to be in your shoes right now, although they 
are still pretty good shoes to have.
    Admiral Allen. I am proud to be in them.
    Mr. Taylor. There is only one Commandant of the Coast 
Guard.
    My point, I heard you mention trying to bring in other 
groups to help out to fill this billet, and I heard you mention 
the Merchant Marine Academy and the other marine academies. 
Hardly a conversation goes by between me and an alumnus of the 
Merchant Marine Academy where they don't worry about the future 
of it.
    In fact, just the other night, I had a senior at the 
Merchant Marine Academy who is getting ready, whose goal upon 
graduation is to be an Army Ranger. Number one, I thought, gee, 
what a great kid to go after that very, very tough task. On the 
flip side, I am thinking, geez, the taxpayers have invested a 
heck of a lot of money to teach this guy to be a maritime 
officer, and he is going to go be an Army Ranger. That doesn't 
seem to make sense.
    Given that MARAD, and I have great respect for Sean 
Connaughton, often strikes me as an agency in search of a 
mission and given the maritime academies that seem to be on a 
roller coaster where all their graduates have work, none of 
their graduates have work, all of their graduates have work, I 
really do think there is a natural opportunity for the Coast 
Guard to work with those academies like you said.
    But what I think is missing, what I sense is missing, given 
some conversations I have had with senior officials at the 
Merchant Marine Academy is I am not so sure it has ever been 
clearly articulated that we need X number of graduates a year 
and we can fill this billet.
    I will flip that around with a conversation I had with one 
of the senior officers of the academy just last weekend where 
they are now in negotiations with the Chief of the Guard Bureau 
where he has actually articulated a number--I think the number 
is between 40 and 50--of people that he wants to bring over to 
the Guard Bureau to make them more aware of the maritime 
situation in the homeland defense mode.
    So my question to you is how specific have you gotten, 
either with Secretary Connaughton or with Admiral Stewart or 
any of the other academies?
    How specific have you gotten in saying I have got this many 
billets that I am going to need for X number of years and can 
you work on your curriculum to help me fill those billets?
    Admiral Allen. I can be very specific, sir.
    First of all, I agree Sean Connaughton is a great partner 
and a former Coast Guard officer. His undergraduate 
institution, I will leave to another day. We play Merchant 
Marine our first football game this year.
    We actually have a plan every year for accessing maritime 
academy graduates into the Coast Guard, and I can give you.
    Mr. Taylor. No. Towards this goal, towards this need right 
here.
    Admiral Allen. Oh, sure, they are a great choice. They are 
a great source, yes.
    Mr. Taylor. But again, to what point are you going to 
Admiral Stewart or Sean Connaughton and say: I have got a 
vacancy. I have got billets that I need to fill in my maritime 
safety offices. Can you adjust your curriculum to help me fill 
that?
    Again, just given my limited experience with the Coast 
Guard, I do think that it was frowned upon, the short side 
billets, and that guys who wanted to have as much gold on their 
sleeves as you have thought that the only way they were going 
to get there was to go to sea. Whether you say it or not, I do 
think that there was a reluctance on the part of many of your 
officer corps to take a job like this.
    Admiral Allen. I don't believe that is correct. We take 
graduates right now and, if we had positions, I would be more 
than happy to get together with Sean and the other folks and 
pull those folks over. What you have to have is the authorized 
position. That takes us back to resources. In other words, we 
access those people right now.
    Mr. Taylor. Okay. So to what extent?
    Admiral Allen. Given an increase in billets, they are a 
perfect source, sir. I absolutely agree with you.
    Mr. Taylor. Admiral Allen, none of us are mind readers. So 
to what extent are you articulating that to Sean Connaughton? 
To what extent are you saying I need this many people to 
Admiral Stewart, and above all to what extent are you sending a 
letter to the Chairman here, saying I need X number of dollars 
to fill this need?
    Again, none of us are mind readers.
    Admiral Allen. I understand.
    Mr. Taylor. So has the Chairman gotten a letter towards 
that end?
    Admiral Allen. What I would propose is as part of the 
assessment that I talked about earlier in the testimony about 
this blended workforce, I think what we owe you is an 
organizational construct on how that comes together between the 
three components. Those are accessed through enlisted and 
warrant officers we bring in from either our academy or the 
Merchant Marine Academy and what we propose to do as far as 
creating a civilian cadre.
    Mr. Cummings. How soon can we get that?
    Would the gentleman yield?
    Mr. Taylor. Certainly.
    Mr. Cummings. How soon can we get that, Admiral?
    Admiral Allen. Sixty days.
    Mr. Cummings. We will hold you to it.
    The Chairman said a month.
    Mr. Oberstar. Mr. Chairman, I have just one comment, 
briefly. We have to break for the vote.
    I just have to say, Admiral, that creating a new structure 
within which you have uniformed Coast Guard and just a couple 
of civilian personnel who would be career people who can absorb 
all that documentation and be able to handle it like an 
aircraft mechanic does is not sufficient. That is not a 
sufficient answer to the need.
    Admiral Allen. I think we need to make the case then to 
you, sir.
    Mr. Oberstar. Thank you.
    Mr. Cummings. Thank you very much, Admiral. We are finished 
with you.
    [Laughter.]
    Admiral Allen. Mr. Chairman, it is always a pleasure. These 
questions are good for both of us, and it has been my pleasure 
to testify.
    Mr. Cummings. Thank you very much.
    We will resume the hearing. We have, as we understand it, 
one vote that might get stretched, so we will see. We will be 
back as soon as the vote is over. Thank you.
    [Recess.]
    Mr. Cummings. We will call the hearing back into order.
    We now have Richard Block of the Gulf Coast Mariners 
Association; Mr. Tim Brown, President of the International 
Organization of Masters, Mates and Pilots; and Mr. Richard 
Doyle, Director of Government Affairs and Deputy General 
Counsel with the Marine Engineers' Beneficial Association.
    I am sorry Mr. Quick is substituting for Mr. Brown. I 
apologize.
    I would remind our witnesses that we have, after you, six 
others to come. I know that you all have great things to say, 
and we want to hear them, but we just ask you to be as brief as 
you possibly can be. We will give each one of you five minutes.
    Keep in mind, we have your written statements, and so 
basically what we would like for you to do is summarize.
    Mr. Block.

   TESTIMONY OF RICHARD BLOCK, SECRETARY GULF COAST MARINERS 
   ASSOCIATION; GEORGE QUICK, VICE PRESIDENT, INTERNATIONAL 
   ORGANIZATION OF MASTERS, MATES AND PILOTS; WILLIAM DOYLE, 
  DIRECTOR OF GOVERNMENT AFFAIRS AND DEPUTY GENERAL COUNSEL, 
            MARINE ENGINEERS' BENEFICIAL ASSOCIATION

    Mr. Block. Mr. Chairman, distinguished Members of the 
Subcommittee, it is my honor to be invited to appear before you 
today to testify on the challenges facing the Coast Guard 
marine safety program.
    My name is Richard Block. I am the Secretary of the Gulf 
Coast Mariners Association. I have given a brief bio in my 
original statement here.
    In our attempts to improve safety and working conditions 
for our mariners, we always presented our problems to the Coast 
Guard first, often bringing them up in correspondence or 
advisory committee meetings.
    However, whenever the Coast Guard proved to be either 
unable or unwilling to move on these issues, we reached an 
impasse. This happened a number of times in the past eight 
years. When this happened, we would send a report to your 
Subcommittee, and we have sent a total of 14 reports in on an 
irregular basis.
    Our association speaks for lower level mariners. By lower 
level mariners, I am speaking of mariners who serve on vessels 
of under 1,600 gross tons. We are a majority of all merchant 
mariners. The Coast Guard lists 204,000 licensed and documented 
mariners.
    Out of the 204,000, we speak for 126,000 plus a large 
number of people the Coast Guard appears to have been forgotten 
about that don't hold licenses or documents and they work on 
the inland rivers, inland waters and offshore on vessels under 
100 gross tons. So we probably represent almost 200,000 people.
    We try to do it as well as we can with extremely limited 
funding. One of our greatest challenges we face is that a 
branch of military superintends our civilian mariners. Now as a 
former Army officer, I understand and respect the military 
lifestyle. However, most of our mariners have never served in 
the Armed Forces. They do not understand the military 
lifestyle. They do not understand Coast Guard rank. They don't 
understand how the military operates.
    I have spent 10 years in dealing with the military. I have 
some limited understanding of how the military works, and it 
just hasn't worked too well in looking after our mariners.
    One of the first areas that I would like to touch on, I 
have five that I may be able to cover here. We reported this 
February on the substandard Coast Guard merchant marine 
personnel services. I am talking about licensing, 
documentation, examinations conducted by the National Maritime 
Center, by regional exam centers.
    The report dealt with 50 individual mariners. Each of these 
mariners came to me with a problem, and we tried to solve it 
through the National Maritime Center. We asked the people at 
the top. We found them very helpful. However, the answers that 
we received and the time it took them to give us the answers 
was not acceptable. I turn you to that particular report.
    Also, we would recommend that civilians replace the Coast 
Guard officers at the National Maritime Center.
    We have other problems with Coast Guard investigations. We 
have probably on record over 600 accidents that we have 
studied. We have asked the Coast Guard to analyze some of the 
data that they have given us. Unfortunately, this hasn't been 
done. I think that this part of the Agency needs to be 
civilianized.
    The two-watch system, this is an area where we are in 
desperate need of a new law which would apply not only to 
masters, pilots and so forth but also to the unlicensed people.
    I think my time is up.
    Mr. Cummings. Thank you very much.
    Mr. Quick.
    Mr. Quick. Well, good afternoon, Mr. Chairman and Members 
of the Subcommittee.
    Captain Timothy Brown, the President of our organization, 
who was scheduled to speak today has a minor medical problem, 
and he has asked me to appear on his behalf.
    My name is George Quick, and I have served as Vice 
President of the International Organization of Masters, Mates 
and Pilots since 1982. I have been involved in the maritime 
industry since graduation from the United States Merchant 
Marine Academy. For the past 50 years, I have earned my 
livelihood in an industry that has been regulated by the Coast 
Guard.
    For many of those years, I have been in positions where I 
have had to interact with the Coast Guard on national and 
international regulatory issues. I have made many friends 
within the Coast Guard over those years. I have come to 
appreciate what the Coast Guard does very well, and I have also 
come to realize where there are problems within the system and 
why friction sometimes exists between the Coast Guard and the 
regulated industry and mariners.
    One of the frictions between the Coast Guard and 
professional mariners is often inadequate communications and 
the lack of understanding and trust that runs in both 
directions. A large part of the cause is the differing cultures 
of the Coast Guard and the merchant marine. The Coast Guard 
sees accomplishing their self-defined mission as of paramount 
importance while we see moving passengers and cargo safely and 
efficiently as our reason for existence.
    The Coast Guard is trained in military and law enforcement 
mold that expects unquestioned respect for authority. They are 
involved in drug interdiction, law enforcement activities and 
security operations where you don't consult with the suspects.
    Shifting to regulating a civilian workforce with 
sensitivity and concern for their opinions must require a gear-
stripping change in attitudes. There is a need to realize that 
the merchant marine has its own tradition and customs, or 
mission, which is every bit as old as the Coast Guard and that 
is also deserving of respect.
    There is a need to bring more merchant vessel operating 
experience into the regulation of the maritime industry both 
for their technical competency and their ability to interact 
with the industry on the basis of shared experiences. This 
could be accomplished in a number of ways.
    There is also a need to review the Coast Guard accident 
investigation procedures to ensure that both U.S. and foreign 
mariners that are involved in marine accidents are treated 
fairly in accordance with standards accepted within the 
international maritime community.
    There is not enough time to go in any detail in an opening 
statement, but I look forward to answering questions from the 
Subcommittee and providing more details in a follow-up 
statement. I am also hopeful of establishing a productive 
dialogue with the Coast Guard on the subjects of concern to us 
sometime in the future.
    Thank you.
    Mr. Cummings. Thank you very much, Mr. Quick.
    Mr. Doyle.
    Mr. Doyle. Thank you, Chairman Cummings, Ranking Member 
LaTourette and the rest of the Committee, for allowing me to 
speak today. MEBA President Ron Davis is unavailable due to a 
scheduling conflict.
    The challenges facing the Coast Guard marine safety program 
represent challenges for the entire maritime industry, both 
labor and management. This hearing is a good step toward 
overcoming them.
    My name is William Doyle, and I am the Director of 
Government Affairs and Deputy General Counsel of the Marine 
Engineers' Beneficial Association and a U.S. Coast Guard 
licensed officer in the merchant marine.
    For 132 years, MEBA has represented Coast Guard licensed 
deck and engineering officers serving in all aspects of the 
merchant marine. We have long been partnered with the Coast 
Guard in ensuring the safe and secure movement of water-borne 
commerce throughout our Country and the world.
    The Coast Guard has earned its reputation by accepting 
mission and mission even when they aren't given additional 
resources. Their record of achieving much with little is 
commendable.
    However, the constant addition of new missions has resulted 
in less public attention for the Coast Guard's core missions 
like marine safety. This has made solving the challenges that 
we currently face within the marine safety program all the more 
difficult. I am confident, however, that through the public-
private partnership model that we in maritime have successfully 
implemented since the founding days of our Republic, we can 
work to solve these challenges together.
    The issues that we face in the marine safety program are 
both internal structural challenges that arise out of the Coast 
Guard's founding as a military organization and the external 
challenges that arise out of the needs to balance safety and 
security with maintaining the steady flow of commerce.
    The Coast Guard is fundamentally military, yet they also 
are responsible for the majority of safety and security-related 
regulatory functions in regards to the merchant marine. This is 
the only branch of the Armed Forces that has such a role.
    As such, there are situations where the adoption of 
military style systems has not been effective. For example, the 
current tour of duty system does not allow a sufficient amount 
of time for uniformed personnel to learn their way around a 
commercial vessel's engine room before they move on to a new 
assignment.
    Further, the Coast Guard's law enforcement function often 
complicates their regulatory function and creates an 
adversarial relationship where one does not need to exist. 
Vessel inspection teams often seem more like police than 
inspectors.
    We feel that an increased number of civilian employees in 
the areas such as safety inspections, merchant mariner 
credentialing and investigatory positions would ensure the 
needed consistency and level of experience to overcome the 
challenges in this area. In addition, to recruiting from the 
maritime academies, MEBA and most of the labor organizations 
here today have access to a pool of retired but still working 
age mariners, not Coast Guard retirees, mariners who could 
easily fill such positions.
    Consistency is another challenge that must be addressed. 
Our companies make many decisions including decisions regarding 
hiring, flagging of vessels, construction of vessels, wages and 
benefits based on Coast Guard's interpretation of rulings and 
various regulatory questions. Any decision made by the Coast 
Guard has a wide impact on the maritime industry, and it is 
critical that the Coast Guard be fair and consistent in their 
interpretation of regulatory opinions.
    The external challenges that are present in the maritime 
safety program are fundamental and far-reaching. The prime 
ongoing challenge is balancing safety and security with 
ensuring the flow of commerce. Quite often in the zeal to make 
the U.S. flag and the U.S. maritime industry the world's safest 
and most secure, they make it extremely difficult for the 
industry to compete internationally.
    While the United States is a large part of the global 
maritime community and has been a member of the International 
Maritime Organization since 1950, you quite often find U.S. 
Coast Guard standards that are much higher than those adopted 
by IMO and used throughout the rest of the world. By holding 
ourselves to a higher standard than the rest of the world, we 
are handicapped when competing internationally.
    This issue is highlighted most clearly in the debate over 
the Transportation Worker Identification Credential. The TWIC 
was designed to increase security in our ports, yet the TWIC 
only applies to American mariners who move less than 2 percent 
of the cargo entering and leaving the United States. Further, 
the card is not compatible with the international standard for 
seafarers' identity documents established by the International 
Labor Organization.
    We are concerned the TWIC will become just another example 
of over-regulation without any increase in security.
    There were several questions and comments that were raised 
at the earlier panel regarding the civilian sector certificates 
of inspection, fear of the Coast Guard, oily water separators 
and oil pollution. I am a mariner. If you have any questions on 
that, I can answer many of those questions.
    Thank you.
    Mr. Cummings. I want to thank you all for staying within 
the time limits.
    We are going to go straight to Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman, and thank you. I am 
sorry I walked in at the tail end of the testimony.
    Mr. Doyle, I had asked this question of Admiral Allen, but 
the question grew out of your testimony which has to do with 
the rotation of Coast Guard inspectors.
    It seems to me as if we are constantly replacing semi-
experienced people with inexperienced people who then become 
semi-experienced and then they move on to their next 
assignment. How real a problem is this and what do you see as 
the fix?
    Mr. Doyle. Thank you, Congressman.
    Congressman Bishop, let me just break it down to what 
happens on a ship. I will take it from an officer's perspective 
coming out of a maritime academy, like I did.
    You go through four years of school. You get your license 
through the United States Coast Guard. It takes a minimum of 
two years to move up from third, then to second, then to first, 
then to chief engineer. You are looking at 16 years of 
schooling in order to get schooling and training in order to 
get your chief engineer's license. You are the person 
responsible for the engine room and all the machinery on board 
that ship.
    What is very difficult for a chief engineer and a captain 
from that perspective is somebody who comes in, who came from a 
different rotation, does a Coast Guard inspection and there are 
problems or communication breakdowns because they are not a 
merchant mariner. They may not be a merchant mariner although 
the Coast Guard does recruit from the academies and there are 
merchant mariners that go into the Coast Guard.
    It is difficult from a commercial sector as a chief 
engineer or captain on the communication level on how a ship 
should run. It is their ship. They feel that way, a chief 
engineer and a captain. So it is very difficult if somebody 
comes in for two years, does an inspection and then leaves and 
a new person comes in. Merchant mariners are career people.
    Mr. Bishop. You believe that the retired merchant mariner 
can be a part of the solution here, correct?
    Mr. Doyle. Absolutely.
    Mr. Bishop. Now, the Coast Guard, Admiral Allen testified a 
little while ago that he is committed to increased civilian 
presence in this issue. Have you had discussions with him or 
anyone in the Coast Guard with respect to the utilization of 
retired mariners?
    Mr. Doyle. Not on this specific instance, no.
    Mr. Bishop. Do you think that a retired mariner would have 
sufficient objectivity?
    I mean he might find himself inspecting ships operated by 
former colleagues. Do you see that as any problem at all?
    Mr. Doyle. No, I do not.
    Mr. Bishop. Tell me why.
    Mr. Doyle. The reason why is because in my organization we 
have what is called port engineers, and those port engineers 
are union. What they do is they are responsible for the 
shoreside part of the ship, making it safe. It is sort of like 
a safety function. They outfit the ship. They make sure that 
the machinery is running well.
    Well, they are supervising officers on board the ship, a 
supervisory role over them. There is no ifs, ands or buts about 
it. It is safety first. They have a job to do, and they are the 
company's representative onshore that interacts with the 
shipboard personnel, and they hold them accountable.
    I do not think that somebody retired at 50 years old and 
wants to start another career, 55 years old, would have a 
problem with objectivity of going over the ship. At the end of 
the day, it is the safety and the lives of the people onboard 
that ship that everybody is looking out for.
    Mr. Bishop. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Cummings. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman, and thank you all 
for your testimony.
    Mr. Block, you used a phrase that I am not familiar with. I 
think I know what it gets at, the two-watch system. Is that the 
preferred hours of service, 12 hour shifts basically?
    Mr. Block. It is six hours on, six hours off. The problem 
with the two-watch system is that human beings require seven to 
eight hours of sleep, and you are constantly running a sleep 
deficit starting from the first day.
    Now, you may be fortunate and if the vessel is tied up 
alongside the dock for a while, you may be able to get a little 
more sleep. But on vessels that run 24 hours around the clock, 
eventually this deficit is going to catch up with you.
    Mr. LaTourette. I understand. We just had a pretty good 
negotiation in the Rail Safety Bill on limbo time and circadian 
rhythms and things like that, and so I am pretty up on that.
    But the question would be is that subject to collective 
bargaining negotiations or is it set in statute for regulation?
    Mr. Block. The problem that our mariners have is that most 
of them do not belong to a union. They are not allowed to 
belong to a union. There have been battles waged in the past 13 
or 14 years in which the unions have always lost.
    Mr. LaTourette. This two-watch system is set in regulation 
under the Hours of Service?
    Mr. Block. It is set in regulation.
    Mr. LaTourette. Thank you.
    I had understood all of you to advocate increased civilian 
participation in the marine safety. I didn't hear, and Chairman 
Young isn't here, but I think I will ask the question he would 
have asked were he here. I didn't hear anyone advocate 
necessarily that that needed to be accomplished only by 
transferring the marine safety responsibility out of the Coast 
Guard and placing it with the Department of Transportation.
    Does anybody have an opinion?
    Mr. Block?
    Mr. Block. I think it could probably be done within the 
Coast Guard system. I think we need to get more civilian 
mariners involved.
    If I could bring something else up, the fear of retribution 
by the Coast Guard. I don't feel any fear myself. However, my 
mariners do feel this fear. If you go against the Coast Guard, 
somehow they are going to get you.
    Well, let me put it this way. The Members of the 
Subcommittee here, if you pull all of these functions away from 
the Coast Guard, all of a sudden 14, 15 Members here are going 
to have to run all of these functions. The Coast Guard may not 
cooperate very fully with you.
    I notice in many ways that the Coast Guard doesn't always 
explain everything to you gentlemen the way we think they 
should, and I am kind of afraid that you might end up running 
the whole system yourself.
    Mr. LaTourette. I hope that doesn't happen.
    Mr. Quick or Mr. Doyle, do you have an observation about 
the proposal to perhaps create a new Marine Safety 
Administration within DOT?
    Mr. Quick. Our goal would be to have a civilian interface 
between the industry and the regulatory body. Whether that is 
accomplished by reorganizing every section in the Coast Guard 
or by transfer to another agency is academic to us.
    Mr. LaTourette. You don't care.
    Mr. Quick. I would prefer or let me say I would believe 
that reorganization within the Coast Guard should be the first 
step, and if it doesn't prove successful, then the ultimate 
step might be a separate agency.
    Mr. LaTourette. That sounds reasonable just from my view 
around here.
    If you take FEMA, for instance, when FEMA was taken away 
from the jurisdiction of this Committee and then thrust into 
Homeland Security, I made the observation--a lot of different 
people made the observation--that you are going to get an 
agency that did a great job on natural disasters and you are 
going to have two parts, emergency response and homeland 
security, and we are not going to fund either one of them 
properly.
    I think we have seen that and paid the price for that.
    Mr. Doyle, what about you on this issue of a separate 
agency or maintaining it? I heard what you said about increased 
civilian presence, but what do you think?
    Mr. Doyle. I think that this oversight hearing is 
fantastic. Admiral Thad Allen sat here and said that he was 
going to provide information within 60 days. I believe in 
giving people a chance to get back on their feet. They should 
have an opportunity to get back up on their feet, but if it 
fails, I think all avenues need to be explored, including that.
    Mr. LaTourette. I appreciate that.
    Then the last thing is, Mr. Doyle, you talked about TWIC. 
The Chairman had a great hearing, I think, on TWIC a little 
while ago, and I couldn't quite understand why the Department 
of Homeland Security had not gone with the international 
biometric standards and some of those things.
    They said it is because we are going to be ahead of the 
curve and have the greatest thing since sliced bread. But the 
fact of the matter is it is over budget, it is over deadline, 
and it is not compatible with what everybody else in the world 
is doing.
    So I appreciate your bringing that up, and I appreciate 
your yielding me time, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Taylor.
    Mr. Taylor. Thank you very much, Mr. Chairman.
    I want to thank all of you gentlemen for being here.
    For the two graduates of the maritime academies, I am 
curious. I don't know if you were, Mr. Block. I heard the other 
two gentlemen mention it.
    I am convinced that there isn't the proper utilization by 
the Coast Guard of that or of MARAD. I am just curious if you 
could be more specific in your recommendations how they could 
be better employed in filling this need.
    The second thing--and Mr. Chairman, I would encourage you 
to consider--is that on the Armed Services Committee, it has 
been a tradition to approach each of the Joint Chiefs when they 
come before the Committee and ask them formally for an unfunded 
requirement list.
    If you think about it, looking back at what happened to 
General Shinseki, looking back at what happened to Mike Parker, 
they are under tremendous pressure to toe the company line even 
if the company line is wrong, and anyone who speaks out of line 
is either canned like Mike Parker or General Shinseki.
    But with the unfunded requirement list, each year, we 
basically give the generals and the admirals an opportunity to 
say, but if I was given some more money, I would ask for this 
ship or I would ask for this vehicle. It is a way of forcing 
them to tell us what they are thinking even if the 
Administration doesn't want them to say it.
    I would encourage us to ask the Commandant for an unfunded 
requirement list.
    Mr. Cummings. If the gentleman will yield, that is an 
outstanding suggestion, and we will jump on that immediately.
    Mr. Taylor. Thank you.
    To you gentleman, if the Commandant had an unfunded 
requirement list and you happened to have been the Commandant 
trying to address this problem, what would you ask for 
specifically?
    Mr. Quick. I would ask for bringing in retired officers 
that still had 15 or 20 years of service ahead of them, that 
had the experience to have an informed judgment when they do a 
ship inspection.
    Mr. Taylor. How many of them, Mr. Quick.
    Mr. Quick. Oh, I don't know.
    Mr. Taylor. Give me a realistic guess.
    Mr. Quick. I would think you would probably need several 
hundred officers in the civilian section of the Coast Guard.
    Mr. Taylor. Is this to get you over a temporary problem or 
is that a sustained level?
    Mr. Quick. No, no. As a permanent basis, I think the Coast 
Guard needs to have a civilian inspection force that covers 
port state control, ship inspection, licensing, safety 
inspections.
    In foreign countries outside the United States, you go to 
the Netherlands or Germany or Norway, that is a civilian force 
that comes on. They are all retired masters or chief engineers, 
and they become the inspection service for that country.
    When they go aboard a ship, they are interfacing with chief 
engineers and masters that have a shared experience. There is a 
great deal of respect for the inspectors, and the inspectors 
have a great deal of respect for the officers on the ship.
    It is an effective system. You have expertise. You have 
competence, and you have motivation. They obviously love the 
maritime industry because that is their choice. It is not 
something they have been assigned to as part of their tour of 
duty and attaining a generalized background in the Coast Guard. 
I think that is the way to go.
    I would be reluctant to bring in recent graduates of the 
maritime academy into this role because they have no more 
experience than recent graduates of the Coast Guard Academy. 
Until they have four or five years at sea at a minimum and at 
least reach something like chief officer, a senior management 
position, they don't have the experience they need to be an 
effective inspector.
    Mr. Taylor. All right. Thank you.
    Mr. Doyle?
    Mr. Doyle. Several hundred probably would be the number. I 
don't know. I can't pinpoint it, somewhere between 500 and 
1,000, because you are really looking at 2 things. You are 
looking at the inspection side, and you are looking at the 
investigatory side.
    Even on the investigatory side, it is fearful because all 
somebody has to do, a disgruntled crew member or somebody that 
has a beef against a company, is make a phone call to the Coast 
Guard and say that ship is coming into port and it was pumping 
oil over the side. The problem is that if you pump oil over the 
side, you are going to pay a heavy price. There are no 
exceptions to polluting our waterways.
    But what we have seen time and time again in the last three 
years is that there is somebody that drops a dime on a ship. 
What happens then is the Coast Guard and some local officials, 
law enforcement officials come down on the ship.
    They immediately separate the chief engineer, the first 
engineer and the captain. They pull them aside. Everybody is on 
basically a lockdown.
    All the inspectors know how to do is run to the engine room 
and find the oily water separator. Once they find the oily 
water separator, they will trace the discharge line to the skin 
of the ship, break the flange, wipe the inside of the pipe with 
a rag, take a sample and then it goes into interrogation mode.
    Now every discharge pump or line out there has some kind of 
residue in there. You are not going to be able to find out 
immediately right then and there whether or not it is oil, but 
it is a very scary situation when you are an officer. You have 
a family and this is your livelihood. When they come on, your 
license and livelihood are in jeopardy, that moment right 
there.
    As the Deputy Counsel for my union, I have had to deal with 
this many, many times. Saturdays, Sundays, late at night, the 
call comes in, and we have to get somebody there.
    So I think that you need these civilian people who have 
sailed in the maritime industry to do the inspections, 
licensing and the investigation. They should be there because 
they have lived it and worked it, and it makes it a lot more 
compatible between the two.
    Whether or not we have to go into another agency right now 
or whether or not it becomes completely civilian, I can't 
answer that. I think that the Coast Guard needs an opportunity 
to look at this.
    Mr. Taylor. It is at the Chairman's discretion at this 
point.
    Mr. Block?
    Mr. Block. I can't answer or really speak to the question 
on the academies because the mariners that I speak for, we are 
lucky if we have them as high school graduates. We have, if I 
had to guess, I would say some place around maybe the ninth or 
tenth grade level on the average.
    When I went to teach in Louisiana back in 1970, I came down 
from New York. We had 2,000 people that signed up for marine 
courses. The average was between grade seven and eight. I used 
to teach grade nine, so I have a pretty good idea of what I can 
expect from ninth grade students.
    We have the same problem today. It may not be quite as 
acute as it was then. However, back in 1970, 1971, Captain 
Newman was sent down to look at the situation on the Gulf 
Coast, and his report I think is still pertinent today. We have 
it on our web site. It would have to be brought up to date, but 
really the Coast Guard has not paid an awful lot of attention 
to the offshore industry since then.
    I was told in 1980 that, oh, those education problems, they 
have all been taken care of. That was a district commander that 
said that. Well, maybe the Coast Guard believes that they have 
been taken care of, but I have to deal with people who write on 
the seventh, eighth, ninth grade level.
    I am the only one at GCMA that writes. I edit their 
letters. I don't edit their thinking. I can read what they 
write. But they have had no way to express themselves, and 
everybody is below college level. I am talking the majority of 
the merchant mariners.
    This is something that has gone over the Coast Guard's head 
for years. It has affected examinations. People can't read the 
questions.
    Thank you.
    Mr. Cummings. Thank you very much, Mr. Taylor.
    I was just thinking. I want all of this to result in some 
effectiveness and efficiency. Other than that, five years from 
now, we will be talking about the same problems and things will 
be worse.
    You all heard the Commandant. Were you here when the 
Commandant spoke?
    Mr. Quick. Yes, sir.
    Mr. Doyle. Yes, sir.
    Mr. Cummings. And you know he said that he appointing 
Admiral Salerno to be basically over this whole mariner safety. 
Am I right, Admiral?
    That was one of the things, and I thought that was major. 
The fact is that the guy who he is appointing is sitting right 
behind you.
    Raise your hand, Admiral, so they will know. Don't worry, I 
got your back. I am watching it.
    [Laughter.]
    Mr. Cummings. As I listen to you all, I just want you to 
comment on what you heard from the Commandant with the issues 
that you all are trying to address. That is number one.
    Number two, Admiral Allen has told us that he is going to 
get his plan to us in 60 days. We are going to hold him to 
that.
    There are two lines of thought. One, you take it out and do 
this marine safety under the Department of Transportation or 
you leave it in under the Coast Guard. Of course, whatever the 
Commandant comes back with, of course, is going to be under the 
Coast Guard.
    Let us assume that you are trying to get into the head of 
the Commandant. What would you want to see in that plan?
    Do you follow what I am saying? Do you get both questions?
    Yes, Mr. Quick.
    Mr. Quick. I would like to see a plan that would phase in 
over maybe a five or ten year period a new system of the old 
219 officers where they brought merchant marine officers into 
the Coast Guard as general line officers but with a maritime 
specialty so that you had a uniformed force that had experience 
in the industry and still had the capability of being flexibly 
used within the Coast Guard.
    I would like to see retired officers that had at least five 
or ten years of experience. Some of our officers can retire in 
their forties under the contracts we have. That is early 
enough. There are enough good years left that they would become 
specialists.
    They wouldn't be able to be promoted up in the Coast Guard, 
but they would be civilian specialists. They wouldn't become 
captains and admirals. When a fellow retires after a career at 
sea and he is 45, 50 years old, he might not be looking for a 
future career advancement as Coast Guard officer. You make him 
a civilian inspector, and he would fill the same role that they 
fill in Germany and most maritime countries.
    Most maritime countries do not have a uniform Coast Guard 
acting as the maritime inspection service. They use maritime 
professionals from the industry to fill that role.
    I don't think you could change instantly. You couldn't have 
a cadre of a couple hundred people come in and do it all at 
once. It would have to be phased in.
    Admiral Allen is talking about a blended workforce. I was 
heartened by that statement. I think that is the right 
approach. But a blended workforce should be the first step in 
eventually becoming an all-civilian maritime professional 
inspection service, and it would probably take five or ten 
years to reach that.
    In the interim, a blended workforce where you are using 
some Coast Guard officers, some enlisted personnel and some 
newly retained merchant marine officers who are maritime 
professionals would have to be phased in.
    One thing that disturbed me with Admiral Allen's proposal, 
he still intends to have a blended workforce using enlisted 
personnel who have never been to see in the merchant marine 
even though they may be chief warrant officers and maybe even 
though they have two years of training at Yorktown. Using them 
as marine inspectors and interfacing at the professional level 
with masters and chief engineers, that is in many of our 
viewpoints an insult to the masters and chief engineers.
    That they send a second class petty officer down to make a 
determination of whether he is doing things right or wrong or 
investigating his actions, that is not acceptable to us. It is 
the way they do it, but most of us rankle at it.
    When they send a petty officer down to represent the United 
States' interest in enforcing international conventions on 
foreign flag ships as a port state control officer, the foreign 
masters, the Germans and the British, take offense that the 
Coast Guard hasn't sent an officer down or a civilian personnel 
with a maritime background.
    Mr. Cummings. I want to get to you two, but let me just 
interject this. You heard the Admiral say, and I am glad, Rear 
Admiral, that you are still around to hear some of this. I see 
you back there, taking notes, and I appreciate that.
    Admiral Allen talked about the relationship , how important 
it is that the mariner and the shipping community and ports 
have a good relationship with the Coast Guard.
    I have said this to many people. Since I became Chairman of 
this Subcommittee, when I think about all of the players that I 
have come in contact with, and I have come in contact with 
every aspect of this whole Coast Guard-maritime community, I 
have ever seen how just about every single person is trying to 
reach for the very best, in other words, although there may be 
some disagreements on some things.
    We saw it in fishing safety. We see it in port security. We 
see it with the TWIC. I mean everybody trying. It is not like 
people just fighting. I am hoping we can maintain that, and the 
Admiral talked about that.
    So that is one of the reasons why I wanted, if we are going 
to have that, it is important that we shouldn't be the only 
ones to hear it. The Admiral and the Coast Guard need to hear 
it too.
    That is why I was so glad, Mr. Block, you said what you 
said and why I was glad the Chairman said what he said with 
regard to this feeling, particularly since 9/11, that we have 
got the policemen, as in the Coast Guard, as opposed to before 
it seemed like more of a working kind of relationship.
    I am going to invite you all, and I am sure Admiral Salerno 
will hopefully agree with me. I say this to this panel and the 
next panel. I don't think it is a bad idea to let them know 
some of the things that you would suggest because we cannot 
legislate everything. I can tell you, we can't.
    All of us know that if you can get a cooperative spirit 
amongst folks or even bring it back, that would be helpful. We 
may have to legislate some things, but all of us, we have to 
work. This community is too important.
    Now, going back to my question, Mr. Block and then Mr. 
Doyle and then we will be finished with this panel unless 
someone else has a question.
    Mr. Block?
    Mr. Block. To look at one item that lies ahead of us, we 
have 5,200 towing vessels that are going to have to be 
inspected. The question is who is going to inspect those 
vessels? We will probably need new inspectors that are trained 
on how to inspect and why can't these be civilians with 
experience doing it?
    The Coast Guard inspection program has gone on for 50 
years. I have always encouraged that program. I have lived with 
it on Subchapter T regulations. Certainly, civilians are 
perfectly capable of doing it. You have to find the right 
civilians, and I am sure that is not an impossibility.
    Mr. Cummings. Mr. Doyle?
    Mr. Doyle. Thank you, Chairman Cummings.
    The maritime industry operates off of government, 
commercial and labor. Executive, congressional and the agency 
levels work with the industry and labor. Nothing really gets 
done or can get done unless we are all on the same page, and 
that is the history of the maritime industry.
    We all pull in the same direction, whether it is you as a 
Congressman, whether it is the agency. It doesn't matter who is 
the President. It is the agency level. That is how we get 
things done for the maritime security program, the U.S. Coast 
Guard authorization bills, whether it is LNG and the priority 
for LNG tankers coming in.
    To comment on Admiral Allen's statements that he said 
earlier, I thought that they were very encouraging, and I think 
he needs that opportunity.
    As Chairman Oberstar said, when this first came on the map 
and came on the radar screen, he has been all over the Country, 
rallying the troops.
    As far as the new position that he stated today, I have 
worked with Rear Admiral Brian Salerno. I have worked with 
people that have been under him when he was coming up, and I 
think that the man is competent. Provided that they can come up 
with a solution, we can help them with that solution. They 
should have that opportunity to try it.
    Mr. Cummings. Thank you very much.
    Mr. LaTourette, did you have something else?
    Mr. LaTourette. I did just to make a comment on Mr. 
Taylor's excellent suggestion.
    Counsel informs me that we have already statutorily given 
the Coast Guard this unfunded needs list, but unfortunately one 
former Commandant Collins took us up on it and submitted such a 
list. Talk about intimidation. I am told that the appropriators 
told him that if ever did it again, he would be defunded 
completely.
    So there is intimidation and then there is intimidation, 
but we apparently already have the authority. I would be happy 
to work with the Chairman.
    Mr. Cummings. We will do that.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Gentlemen, I do appreciate your being here.
    Mr. Quick, I would like to follow up on something you said 
because when you said they needed hundreds of retired mariners, 
I am trying to put a price tag on that. Later on, you said 
something like you don't need some petty officers doing this.
    I would have to disagree with you on that. I think the real 
solution, and I hope you would think about this, is going to be 
a mix of the two. I don't think you need someone with 20 years 
sea experience to count life preservers or the condition of 
them or to check the running lights out or a lot of the simple 
things that are part of a Coast Guard inspection.
    That is overkill. That would be like me hiring Ph.D.s to 
help me with my mail. A typical congressional office has 
everything from kids straight out of college to an old geezer 
like myself, and it works pretty well.
    I have got to believe that the Coast Guard organization 
also envisions that not every task is as difficult as the next. 
Obviously, to inspect a steam plant or turbine, a water 
separator, something that is technical, you are certainly going 
to need some technical expertise.
    I hope I didn't mishear you on that, that the only people 
capable of doing that are people that have had 10, 20 years of 
sea experience.
    Mr. Quick. I wouldn't disagree that they are probably 
capable of doing it, but I think it is a question of perception 
with the people they are working with.
    A ship has a hierarchy almost like the military. It is 
quasi-military. Masters, they have a certain perception of what 
the junior officer's status in the world is and what the rating 
status in the world is, and they do take offense at having a 
Coast Guard petty officer, whether he is competent or not, 
coming aboard and exercising governmental authority over his 
operations.
    I don't think it is a question of competency. I think it is 
a question of interpersonal relationship based upon perceptions 
and rank.
    Mr. Taylor. If you were to draw up an organizational chart 
of what needs to be done above and beyond what the Coast Guard 
is doing now, give me an idea of what it looks like.
    I am not in total disagreement with you because the Army 
Corps of Engineers, for example. The vast majority of people I 
deal with at the Army Corps of Engineers are civilians. At the 
end of the day, though, they answer to the district commander 
who is a colonel or a general. If something goes wrong, that is 
who is ultimately responsible and whom everyone knows is their 
boss, whether that guy is civilian or in uniform.
    The concept that you are talking is not unique in 
government. With the exception of Hurricane Katrina in New 
Orleans, this works pretty well for the Corps.
    Mr. Quick. Well, if I were doing it, I would re-establish 
the 219 program and bring younger maritime officers into the 
Coast Guard at lieutenant, lieutenant commander ranks and put 
them on a career path where they did marine inspections but 
they also did general line duty in the Coast Guard and looked 
upon them when they became captains or admirals to be the 
policymakers for the marine inspection service.
    Then I would fill the ranks where they really interface and 
do the work with civilian maritime professionals. They might be 
assisted by Coast Guard petty officers, but I really don't look 
upon that as a good solution.
    It might be a possible solution, but if it were my 
preference I would have 40 or 50 year old experienced 
professionals that could interface with the people in the 
industry on an equal basis and have them fulfill the role that 
doesn't look for promotion. They become the specialists rather 
than the generalists, not the policymakers but the 
implementation of policy.
    Mr. Taylor. Let me ask you the million dollar question. One 
of the new House rules is pay as you go. It is pay as you go. 
If a new program comes along, if the increase in the size of a 
cost of a program comes along, we have to pay for it.
    To what extent, if any, would the private sector be willing 
to pay more to get their inspections done in a more timely 
manner, to get their background checks done in a more timely 
manner?
    This is really million dollar question. What is the cost-
benefit ratio to the private sector?
    Mr. Quick. Oh, I can answer that question very easily 
except I represent a labor organization.
    Mr. Taylor. Okay, let us start with the members of your 
organization, who would be paying for these licenses.
    Mr. Quick. Well, we are doing it now. Our license is paid 
for. The licensing program is paid for by the people who 
receive the licenses.
    Mr. Taylor. But you are apparently concerned about the 
delays. What would they be willing to pay extra to cut down on 
the delays?
    Mr. Quick. I think it would depend upon what grade of 
license. The masters and officers on the large commercial ships 
probably wouldn't object to a fairly substantial increase in 
the fee if they got their license on the or were treated with 
courtesy and respect. But if you are dealing with the 
unlicensed or the lower level licensed people who are working 
at non-union companies at something close to minimum wages, 
they would have a different perspective on it.
    Mr. Taylor. If you would be willing to put those thoughts 
in writing, I would appreciate it.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    I want to thank the panel very much. Your testimony has 
been very helpful.
    We will now call our next panel. As the next panel comes 
forward, we are going to be taking a vote soon.
    Come on up. Come on up. Please come up.
    What we want to do is we want to finish this hearing before 
we take the vote so that you all can go home. So we don't want 
you to be here like we will be until 10:00 or 11:00 tonight.
    We just ask you to say what needs to be said. Keep in mind, 
we have your written testimony, and we do thank you all for 
being so patient.
    One of the things I would ask in the spirit of efficiency 
and effectiveness is that those who feel like you could, I 
would really like to hear your reactions to what you heard from 
the Commandant.
    We will first hear from Thomas Allegretti, President of the 
American Waterways Operators. Then we will hear from Joseph 
Cox, President of the U.S. Chamber of Shipping; then Peter 
Lauridsen with the Passenger Vessel Association; and then B.W. 
Tom Thompson, Executive Director of the U.S. Marine Safety 
Association; Jim Weakley, President of the Lake Carriers 
Association; and Ken Wells, President of the Offshore Marine 
Services Association.
    I want to be clear. I don't want you to say what you have 
got to say, but I am also trying to be considerate of your time 
too. Okay. If you all want to come, we will come back.

 TESTIMONY OF THOMAS ALLEGRETTI, PRESIDENT, AMERICAN WATERWAYS 
  OPERATORS; JOSEPH COX, PRESIDENT, U.S. CHAMBER OF SHIPPING; 
    PETER LAURIDSEN, PASSENGER VESSEL ASSOCIATION; B.W. TOM 
 THOMPSON, EXECUTIVE DIRECTOR, U.S. MARINE SAFETY ASSOCIATION; 
 JIM WEAKLEY, PRESIDENT, LAKE CARRIERS ASSOCIATION; KEN WELLS, 
        PRESIDENT, OFFSHORE MARINE SERVICES ASSOCIATION

    Mr. Allegretti. Good afternoon, Mr. Chairman, Mr. 
LaTourette, Mr. Taylor, Members of the Subcommittee. Thanks for 
the opportunity to appear before you today. Thanks for your 
leadership in raising this very important public policy and 
safety issue.
    Our members care deeply about this matter because of who we 
are, because of what we do and how we try to do it. Our 
industry is a critical segment of the U.S. transportation 
system, and we depend heavily on the Coast Guard's marine 
safety mission to facilitate the safe and efficient movement of 
vessels and cargo on our Nation's waterways.
    We also care about the Coast Guard's execution of its 
marine safety mission because our top priorities are the lives 
and health of our crew members, the safety of our vessels, the 
integrity of our customers' cargos and the protection of the 
natural environment. In today's market, safety is quite simply 
our franchise to operate.
    Mr. Chairman, this is an important opportunity for all of 
us to step back and consider whether the Coast Guard marine 
safety program is functioning at the level that Congress, the 
public and our industry both need and expect. We understand we 
share the concerns that have given rise to today's hearing.
    I would like to describe for you our vision of an effective 
and well run marine safety program and describe what our 
industry sees as its baseline needs with respect to how 
government handles the marine safety portfolio.
    I would start by saying we believe that Congress, the Coast 
Guard, the public and the maritime industry all have the same 
core expectations of what an effective government safety 
program should look like, and we think it has four critical 
elements.
    First, safety of life, the life and health of the men and 
women who work aboard our vessels is protected and preserved. 
Two, safety of property, vessels arrive safely at their ports 
of call. Three, protection of the environment, discharges of 
harmful substances into the marine environment are minimized 
with the goal of eliminating them altogether and, finally, 
facilitation of maritime commerce, maritime commerce flows 
freely and impediments are either prevented or they are cleared 
away quickly. That is our vision of an effective marine safety 
program.
    We think that for any Federal agency to attain all four of 
those goals is going to need to do some things differently than 
we are doing them today. I will tell you that our industry sees 
these as baseline needs of any future marine safety program.
    The Agency needs to make marine safety a clear priority. 
Making marine safety a priority does not necessarily mean that 
safety must be the only thing that the Agency does, but it does 
mean that ensuring that there are necessary resources that are 
allocated to the marine safety mission and that there is an 
internal structure that supports that mission.
    The Agency's personnel must have a deep understanding of 
the maritime industry. Our industry sorely needs regulators who 
understand the way our business is and our vessels work and who 
know that the Nation's economy quite literally depends on goods 
moving on time and on budget.
    The Agency must have respectful dealings with vessel crew 
members. A guiding principle of the Coast Guard's Prevention 
Through People Program was Honor the Mariner. American mariners 
need and deserve such respect. They are the hardworking 
professionals without whom our economy would be in deep 
trouble.
    We need a Federal agency that deals with us efficiently 
with a customer focus. We need consistency, and we need 
continuity. We need regulators who know what the policy is and 
how have the expertise to apply it properly.
    The Agency must make the timely development of needed 
regulations a real priority. When a clear regulatory need is 
identified, it is in the interest of both government and 
industry that we get it done and we get it done right as soon 
as possible. In our view, if it is not worth doing 
expeditiously, it is probably not worth doing at all.
    Finally, the Agency must deploy its enforcement resources 
based on risk. The Coast Guard Marine Safety Manual correctly 
states that a balanced marine safety program helps companies 
that are trying to comply with the law, punishes companies who 
disregard the law and rewards those who go above and beyond the 
law.
    We think that is exactly right. Governmental enforcement 
attention should clearly be tied to risk.
    Thank you, Mr. Chairman, for calling the hearing today. 
These are serious questions, and we thank you for getting us 
started in trying to answer them.
    Mr. Cummings. Thank you very much, Mr. Allegretti.
    Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman.
    I appreciate that Tom was able to hit it almost within two 
seconds of the five minutes. I will try and do the same.
    Mr. LaTourette, Mr. Taylor, thank you for being with us.
    Mr. Chairman, there is one thing I think that I haven't 
heard today, but I think it is important to put into the 
record, and that is that the American maritime community has an 
outstanding safety and environmental protection record. It is 
because of the people on our vessels and it is because of the 
people in our companies who are operating those vessels.
    The Chamber operates two award programs a year, one, the 
safety award program. In June, we were able to hand over 800 
vessels awards for safety, and they operated over 4,000 years 
in a safe mode.
    In September, and I certainly would invite Members to join 
with us. I will be getting invitations out to you. We have an 
environmental achievement award that is given out. Last year, 
we gave that award out to over 380 vessels that had operated 
4,400 years in environmental achievement. I think that is an 
outstanding record that the American public does not 
appreciate.
    Mr. Chairman, as we went out to our members with the 
substance of this Subcommittee's hearing, we got a lot of 
stories back and a lot of anecdotal information. We tried to 
characterize those under some items that could be identified. 
The first one was what we call 24-7 which is that our industry 
operates in a 24 hours a day, 7 days a week mode on behalf of 
our customers who are cargo owners and we have to move that 
cargo on behalf of the American public.
    We recognize that there can be problems with the government 
agencies that have to interact with us, but some of those 
anecdotes refer to the fact that we are 24-7, and we think that 
there ought to be an appreciation of that on behalf of those 
who have to service our needs, and that includes government 
inspections.
    The second area is uniformity of Coast Guard actions and 
activities and decisions. This is a perennial problem, Mr. 
Chairman. It has been around for a long time. If I had a 
answer, I think I would offer to sell it to Admiral Allen.
    However, one Coast Guard office making a decision that is 
at variance with another Coast Guard office or at variance with 
an earlier decision that is made in the same office creates a 
problem for the industry in that they are then unable to 
operate in a mode around the Country with some feeling that 
they are not going to be stopped for a different interpretation 
of the same circumstance.
    The third area, Mr. Chairman and Members, is redundancy. A 
few years ago, we were very much complaining as an industry 
about the fact that we were receiving inspections by our class 
society and the very next day we were receiving inspections 
from the Coast Guard. They were covering the very same issues, 
and therefore our staff time aboard the ship and our staff time 
from shore was not being utilized in the most expeditious 
manner.
    We got a very good receiving of our allegations by the 
Coast Guard. We engaged in a program that took us a year to 
develop, but it evolved into the compliance program, the 
alternate compliance program, which we think is operating very 
effectively to reduce examinations. We think that there are 
still some redundancies in the system of inspection, and we 
feel that could be addressed.
    The fourth area, Mr. Chairman, is professional expertise. 
You have heard a lot about that today. We heard a lot of 
testimony with respect to how that could be addressed.
    We only say it from the Chamber of Shipping of America's 
viewpoint. Yes, it is a problem. There is a major concern. It 
exists now. Looking down the road five to ten years, we think 
that those concerns are going to be valid, and we have to do 
something about it now.
    The fifth area, Mr. Chairman, is resources. Our comments 
there I think are echo that you have heard previously today 
which is this is probably the key area. As you go up into all 
the other areas that I pointed out, you probably go back to 
resources and how do we do it. If I had an answer to that, once 
again, I would make it available to you for a particular 
consultant's fee.
    There is not going to be an easy answer. It is not going to 
be simple. But, Mr. Chairman and Members, this is the United 
States. We are Americans, and we can solve these issues. We 
have solved much more thorny issues in the past, and I expect 
that we can attack and make sure that we do the right thing in 
this particular area.
    Mr. Chairman, thank you very much.
    We are proud of our safety and environmental record in this 
industry. We are not critical of anyone in this industry at any 
level. We are seeking improvements so that we continue to get 
better and do our jobs.
    Thank you very much, and I will respond to questions.
    Mr. Cummings. Thank you very much, Mr. Cox.
    Mr. Lauridsen.
    Mr. Lauridsen. Mr. Chairman, Members of the Subcommittee, I 
am Peter Lauridsen, Regulatory Affairs Consultant for the 
Passenger Vessel Association. Previously, I served the Coast 
Guard 29 years, retiring as Deputy Chief of the Office of 
Marine Safety, Security and Environmental Protection.
    The Passenger Vessel Association is a national trade 
association for U.S.-flagged passenger vessels of all types.
    PVA is deeply concerned that as a result of changes after 
September 11th, 2001, the Coast Guard no longer recognizes the 
U.S. mariner and the U.S. vessel operator as an ally and 
partner but instead views our industry segment as a hindrance 
and afterthought and even a threat. This is an unfortunate and 
dramatic change in philosophy from that exhibited previously in 
the Prevention Through People Program and its guiding principle 
of Honor the Mariner.
    PVA members rely on the Coast Guard for inspection of their 
vessels, issuance of licenses and documents to their employees, 
and review and approval for plans for construction of new 
vessels. PVA members need Coast Guard personnel to be 
knowledgeable about the regulations that apply to U.S. 
passenger vessels.
    When the Coast Guard fails to meet these expectations, the 
effect is to impose economic roadblocks that harm PVA members' 
ability to conduct their legitimate businesses. This is an 
important component of the Coast Guard marine safety efforts. 
They facilitate marine commerce including the transportation of 
passengers.
    Too often in recent years the Coast Guard's performance in 
its legacy marine safety functions has fallen short. The 
telling symptom is the recently issued document entitled U.S. 
Coast Guard Strategy for Maritime Safety, Security and 
Stewardship.
    Its discussion of the legacy marine safety program is 
disappointing in its brevity, characterization and direction. 
Only a single page of the 54 page charter is devoted to marine 
safety. This, in a nutshell, unwittingly illustrates that 
marine safety functions have been shouldered to the side by 
security emphasis.
    Another example is the longstanding inability of the Coast 
Guard to timely issue licenses and merchant mariner documents 
to U.S. citizens, an issue that this Subcommittee examined last 
year.
    Even if we see eventual improvements in the licensing and 
seaman documentation arena, the U.S. passenger vessel industry 
needs a similar enhancement of the program of annual safety 
inspection of vessels. The cadre of Coast Guard vessel 
inspectors seems to have more work than they can perform in a 
commercially reasonable time frame.
    The Coast Guard has always been able to adapt itself to the 
needs of the Country. It moved to the new Department of 
Transportation, aided in Vietnam, geared up to implement the 
Oil Pollution Act, interdicted Cuban migrants, emphasized the 
war on drugs and upgraded maritime defense. Many of these 
phases drew on the marine safety programs for the expertise of 
its personnel and its pool of human resources. The marine 
safety programs would adapt and over time would be restored.
    PVA worries that without prompt remedial action, the 
unprecedented emphasis on homeland security will cause long-
lasting and perhaps irreversible degradation of the marine 
safety functions.
    The trauma of September 11th was so dramatic that it 
changed the very character of the Coast Guard and continues to 
do so. The marine safety programs furnished much of the 
expertise and personnel needed to ramp up maritime security. 
This time, there is less restorative capability to bring back 
and maintain the legacy maritime safety capabilities.
    A fundamental problem is that the new organizational 
structure of the Coast Guard, the sector concept, has 
effectively capped the traditional marine safety career 
specialist in the field at about the lieutenant commander or 
commander level. Thus, the relatively more junior marine safety 
officers report to more senior officers who increasingly are 
drawn from other mission areas of the Coast Guard.
    Marine safety functions are not enhanced or facilitated by 
a single, all-encompassing Coast Guard area commander concept.
    The face that we see on the waterfront now is distinctly a 
military one: guns, boots and the aura of martial law. Prior to 
September 11th, the Coast Guard's proud military heritage was 
softened because it was seen first as an organization of 
seasoned marine safety professionals. Today's Coast Guard, in 
many ways, is a stranger on the working waterfront.
    The restoration of the vital marine safety program requires 
an identifiable career progression. In Coast Guard 
Headquarters, areas and districts, each unit needs a leadership 
position held by a professional marine safety officer 
identifiable as such. This will enable more junior Coast Guard 
marine safety people to aspire to the position and to see a 
clear career path to it.
    The men and women of the Coast Guard are intelligent, 
motivated and deliver a great service to the Country. The 
members of PVA are proud of them.
    That service, however, is not being fulfilled consistently 
in the safety regulation role. By pointing out our concerns 
about the current overshadowing of the marine safety program, 
PVA is hoping that this Subcommittee will work with Coast Guard 
leaders to remedy the situation.
    Thank you very much, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Thompson.
    Mr. Thompson. Good afternoon, Chairman Cummings, Ranking 
Member LaTourette and Members of the Subcommittee. Thank you 
for this opportunity to speak. I will be brief in my oral 
statements but request that my full written statement be 
entered in the record.
    Mr. Cummings. So ordered.
    Mr. Thompson. The United States Marine Safety Association 
is a professional organization comprised of more than 150 
companies and individuals. Members are involved in the design, 
manufacturing, sale or service of lifesaving equipment or its 
components, provide training in the use of such equipment and 
systems or are career professionals in maritime safety.
    Personally, I have worked in the maritime safety field for 
over 20 years. I chaired the ISO Subcommittee on Marine 
Lifesaving and Fire Prevention and served on the U.S. 
delegation to IMO.
    Lifesaving appliances are the last line of defense in 
assuring safety of life at sea. Survival craft and personal 
lifesaving appliances are the only protection passengers and 
crew have from drowning and hypothermia in the event of a 
commercial or recreational vessel casualty and therefore must 
meet the highest standard of reliability.
    In the past, Coast Guard helped assure this reliability and 
oversaw the manufacture of lifesaving equipment, witnessed the 
servicing of primary lifesaving equipment, specifically 
lifeboats and inflatable life rafts. But over the past 10 years 
and even more notably since September 11th, 2001, participation 
and oversight has been significantly diminished.
    The current Coast Guard specifications for approval of 
inflatable life rafts were issued to incorporate technical 
revisions from IMO SOLAS. As part of those revisions, changes 
were made to Coast Guard requirements for inspection of life 
raft manufacturing plants and servicing facilities.
    After the initial approval of the raft, the servicing 
facilities were no longer required to have a Coast Guard 
inspector during life raft servicing. Therefore, attendance of 
the Coast Guard inspector is now solely at the discretion of 
the local marine inspection unit. The service facility is still 
required to inform the local Coast Guard when servicing an 
approved raft.
    Since this change, Coast Guard attendance at life raft 
servicing has all but disappeared. In some cases, it has been 
more than 10 years since some of the service facilities have 
seen a Coast Guard inspector. This change was driven by 
resource availability and the assessment of associated risk.
    In general, Coast Guard-approved rafts are being serviced 
in the U.S. in a proper and correct manner. Although we are 
aware that there are some problems, in all probability, these 
would have been quickly resolved had there been active Coast 
Guard involvement. The industry is essentially now self-
policing.
    When a servicing facility finds a problem in a life raft, 
the facility is required to notify the local Coast Guard and 
the manufacturer. The facilities do indeed notify the Coast 
Guard locally, but this is seen as one problem, a single 
entity. Because of this, little priority is given by the local 
Coast Guard to reports that appear to be single occurrence 
issues as no one is in a position to perceive their extent or 
the significance of the problem.
    Therefore, U.S. MSA recommends that in addition to 
reporting to local Coast Guard offices, problems and 
deficiencies be reported also to the appropriate personnel at 
Coast Guard Headquarters, who are responsible for the approval 
of this critical lifesaving equipment.
    Our members have made the following statements concerning 
Coast Guard involvement and Coast Guard inspection and life 
raft servicing:
    Service facilities do notify the Coast Guard and marine 
inspection office when Coast Guard-approved life rafts are 
being serviced. Coast Guard has not visited some of the 
facilities for a number of years, in some cases, up to 10 
years.
    Coast Guard often does send a representative when rafts 
from Coast Guard cutters are being serviced. This is often, 
however, an auxiliarist who is not familiar with life raft 
servicing.
    One facility noted that they trained Coast Guard inspectors 
who were conducting onboard vessel inspections to show them 
what to look for, to show them how rafts should be properly 
installed and stowed on board.
    There is common agreement that rafts are being properly 
serviced, although from time to time there are deficiencies 
found from previous servicing. Raising the level of oversight 
would reduce the opportunity for improper servicing.
    Often, inspectors have little familiarity or training in 
the servicing of lifesaving equipment. Some inspectors have 
checked lifesaving equipment calibration and facility 
cleanliness and not have looked at a single raft being serviced 
while they visited the facility.
    The Coast Guard provides a unique perspective that extends 
across manufacturers, service facilities and wherever U.S.-
flagged vessels' equipment is being manufactured, repaired or 
serviced. They are the only authority in a position to provide 
early identification of concerns or issues.
    We believe the issues in general are reflective of 
circumstances across the Coast Guard's marine safety program. 
We urge Congress to support and restore this crucial and 
longstanding mission of the Coast Guard and make suitable 
resources available.
    Specifically, we recommend that the Coast Guard establish a 
program to assure quality manufacture and servicing through 
periodic audit inspections, verify that life raft servicing 
facilities have the correct information and technical 
bulletins, and the Coast Guard has the personnel performing 
these facility inspections and audits be properly trained and 
have sufficient expertise to do the job.
    Since we are now running over time, I will direct you to 
the written part of the testimony which gives much more detail 
and examples of what I have said.
    Thank you for the opportunity.
    Mr. Cummings. Thank you very much, Mr. Thompson.
    Mr. Weakley.
    Mr. Weakley. Thank you, Mr. Chairman.
    Since 1880, Lake Carriers Association has represented U.S.-
flagged commercial vessels. We represent 18 American 
corporations that operate 63 U.S.-flagged lakers. The cargoes 
that we carry drive the U.S. economy: iron ore for the steel 
industry, coal for power generation, limestone and cement for 
construction.
    Our members could not meet the needs of commerce without 
the dedicated men and women of the United States Coast Guard. 
They open shipping lanes and maintain aids to navigation. Coast 
Guard crews set out in the harshest conditions to free an 
icebound vessel or to med-evac a sick crew member. No one 
questions the dedication of the Coast Guard personnel stationed 
on the Great Lakes.
    I would like to describe my vision for the ideal marine 
safety system, discuss some of the challenges posed by the 
current system and make general recommendations.
    Only through mutual understanding and cooperation between 
government and the public it serves can the national security 
interests of our Nation be met. This is a national security 
issue: protect the economic interest of our citizens, 
facilitate the commerce with our trading partners and guard the 
physical security of our ports and waterways.
    The marine safety program should ensure the availability of 
qualified mariners and safe vessels. It must provide a level 
playing field between U.S.-flagged and foreign-flagged vessels 
calling on our ports. We need consistent application of the 
law.
    The ideal program also requires a learning organization, 
one that builds on its experience and expertise and recognizes 
that processes can be improved and that mistakes are possible.
    We need an appeals process that results in a fair and 
objective review of the facts and lays a foundation for better 
decisions in the future. Marine safety decision-makers must 
have the appropriate knowledge and experience to make judgments 
regarding the seaworthiness of a vessel or a mariner.
    An understanding of the general principles must be 
augmented by specific expertise in the application of the 
regulations and the vessel service. There is no substitute for 
experience, particularly seagoing experience. You can read all 
the theory you want, but until you have navigated a vessel in 
congested waters, completed light-offs on a cold engine room or 
traced out the fuel oil system, you cannot fully grasp the 
complexity or the simplicity of the situation.
    There is an additional element needed. I call it 
appropriate posture.
    Consider the vastly different jobs of a city building 
inspector and a local police officer. Both are law enforcement 
officers. Each approach their jobs differently, have different 
training and take on a different posture depending on the 
circumstances.
    There are times when a law enforcement agency must take an 
aggressive approach including a show or a use of force. In 
other instances, a less aggressive or collaborative approach is 
appropriate and better serves the public interest. No mayor 
would send a building inspector to respond to a traffic 
accident nor would he or she send a police officer to look at a 
plumbing installation.
    There are many challenges facing the marine safety program. 
I worry about the program's ability to compete for money and 
people as the Coast Guard continues to take on additional and 
fundamentally different responsibilities.
    Industry is often frustrated by inconsistent 
interpretations. These may vary between sector commands or may 
change with the rotation of a single individual. The program 
needs institutional memory and coordinated enforcement to 
ensure a level playing field and to reduce the cost of 
unnecessary requirements.
    When difference of opinions between Coast Guard offices or 
Coast Guard officers takes place, industry pays the price. The 
rotation of Coast Guard personnel after a few years denies both 
industry and the Coast Guard the expertise that comes only with 
experience.
    On the Great Lakes, we operate in fresh water. This means a 
properly maintained hull can last almost indefinitely. We 
operate a cement carrier built in 1906. These vessels are well 
maintained. They are like vintage muscle cars designed and 
built in a different time but more than capable of getting the 
job done.
    The Great Lakes are truly unique. An inspector may see a 
steam plant or a riveted hull for the first time when she steps 
on board to conduct an inspection. He may not be familiar with 
the regulations that apply to the vessel and may not even have 
access to a copy of the applicable regulations.
    We often have inspectors enforce OCEAN regulations on the 
Great Lakes.
    The Coast Guard must consider longer tours of duty. Another 
option is civilian inspectors with specific geographic and 
industry expertise. The Army Corps of engineers successfully 
uses this model.
    The marine safety program would benefit from an influx of 
industry-specific expertise and experience.
    An appeals process that results in a fair, objective and 
timely review could improve the credibility of the marine 
safety program and transform it to more of a learning 
operation.
    We have deep respect and hope to improve the marine safety 
program. If done properly, active duty sailors can be free to 
pursue other Coast Guard missions, our limited government 
resources can be used effectively, and commerce can move more 
safely and with greater efficiency.
    The national security interests of the United States of 
America demand that we remain vigilant and efficient.
    Mr. Cummings. Thank you very much, Mr. Weakley.
    Mr. Wells.
    Mr. Wells. Thank you, Mr. Chairman, Members of the 
Committee. Thank you for allowing OMSA to testify today.
    Ever since September 11th, the Coast Guard has struggled to 
find the balance between its traditional missions like marine 
safety and its new mission of homeland security.
    Our association, which represents the U.S.-flagged vessels 
that work in the offshore oil and gas sector, wants to make 
sure that the Coast Guard's safety functions are not allowed to 
degrade or shunted off to some corner of the Agency, out of 
sight, out of mind. If that were to be allowed to happen, we 
are concerned that safety will suffer, the maritime industry 
will suffer and the institution of the Coast Guard will suffer.
    By way of example, because our association and most of our 
members are located just outside New Orleans, we had box seats 
for the response to both Hurricanes Katrina and Rita. To put it 
simply, as you know, it was the Coast Guard's finest hour. 
There was no master plan for responding to that incident, those 
incidents. The old rules didn't apply, and agencies that were 
too rigid or unwilling to take chances failed miserably.
    So why was the Coast Guard so successful? Here is our take.
    Their officers in the field were experienced. On the Gulf 
Coast, we have been fortunate to have a number of captain, 
commander and lieutenant commander level officers who have 
stayed in our area for long enough to become experts and to 
have developed the experience in the field. They know our area. 
They know the right people. They know how to get things done 
quickly.
    Second, they were problem-solvers. They didn't get 
overwhelmed by the enormity of the destruction. They treated it 
as a series of problems to be solved. They got the right people 
in the room, and they went to work.
    And, third, they weren't afraid to innovate. They were 
flexible. They were open to finding new solutions.
    Those qualities are, in our mind, a part of the culture of 
the traditional marine safety program. If the Coast Guard loses 
that culture, the stakes are very high for our Nation. For our 
industry, what may be at stake is our continued progress on 
safety.
    In the past, our industry and the Coast Guard have had a 
close partnership, and the results have been spectacular. It 
has been one of the most remarkable industry-Coast Guard agency 
partnerships in general.
    We have just completed our latest internal safety survey, 
and the results of our members' safety statistics show that 
offshore work boats have a reportable incident rate that is 
about one-tenth of the OSHA reportable incident rate for all 
U.S. businesses. So what I am telling you is that our industry, 
working on our boats is safer than working in a bank or in a 
store or in a restaurant or just about any U.S. workplace.
    We got there because we worked as partners with the Coast 
Guard marine safety professionals. They were experts. They were 
willing to approach safety as a problem to be solved. Finally, 
they weren't afraid to be flexible to innovate and to trust us 
to do what was right for our vessels.
    We don't want to lose that because that is what has worked 
for us. But, in truth, today we see that relationship as being 
at some risk.
    Our written testimony outlines the specific concerns, but a 
theme that runs through all of our concerns is whether the 
Coast Guard today is still putting the proper internal focus on 
marine safety, whether they still emphasize marine safety as 
much as we do.
    Since September 11th, the Coast Guard has gone through a 
number of reorganizations and restructurings. It is getting 
harder and harder to know where marine safety sits on the 
organizational chart.
    From top to bottom, we are concerned. We want to make sure 
that from the highest levels down to the field level, the Coast 
Guard doesn't become isolated from the concerns of the maritime 
industry and the Commandant doesn't become isolated from the 
voices of his marine safety professionals.
    Finally, we don't have a minute to lose because thousands 
of Coast Guard personnel have come onboard since September 
11th. Looking at it, about half the lieutenants, all the JGs, 
ensigns, junior petty officers, all started since September 
11th, and so this is the only culture they know. If the ship 
does not turn around soon, the culture of the marine safety 
professional may be lost.
    Thank you.
    Mr. Cummings. Thank you very much, Mr. Wells. I want to 
thank all of you.
    We have got about 15 minutes, so we are going to first go 
to the Chairman, Mr. Oberstar, and then we are going to go to 
Mr. LaTourette.
    Mr. Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman. I am very grateful 
to you for spending all this afternoon on this hearing.
    Mr. LaTourette, the Ranking Member, thank you very much for 
your ever thoughtful and incisive questions and presence and 
contribution to this hearing.
    It is something I initiated. I felt an obligation to be 
here. Unfortunately, I have been diverted with other matters 
that have taken attention: the collapse of the bridge in 
Minnesota and, more recently, a meeting with the Governor of 
Virginia and the Virginia congressional delegation and the 
Federal Transit Administration on the route to Dulles. All of 
these are under our Committee jurisdiction. I stayed up some 
time last night, reading testimony, and I was struck by the 
common themes running through all of it.
    Mr. Lauridsen, I quoted from you extensively to Admiral 
Allen.
    Mr. Allegretti, Mr. Cox, Mr. Thompson, Mr. Weakley and Mr. 
Wells, all of you have common concerns, common themes that we 
need to address, and that common theme is the Coast Guard is 
being diverted from its marine safety mission to a security 
mission.
    I had I think a rather spirited exchange with Admiral Allen 
about this matter. I see no homeland security connection 
between the regulatory role that the Coast Guard fills with 
respect to your industry, your respective segments of the 
industry, and homeland security and marine safety. In fact, the 
marine safety, as each of you has designated, is being 
converted in one or another way.
    Mr. Lauridsen, your theme of Prevention Through People, 
Honor the Mariner, that really struck home with me. That has 
been the relation ship of the Coast Guard with the maritime 
community.
    Mr. Lauridsen. Yes, sir. That is the recent, well, pre-9/
11, the Prevention Through People and the Honor the Mariner was 
where we were at. We were transitioning from the 20th Century 
reaction-oriented Coast Guard to a Coast Guard that realized 
that industry was an equal partner, industry had certainly much 
of the professional capability, that they couldn't do the job 
alone, and so I think that partnership was very strong.
    With the advent of 9/11, there was an influx of people, as 
Ken points out. There was a lot of people that came in without 
the background, without the historic feeling, the interaction 
of having been brought up in the program and didn't see the 
industry as partners, didn't see the industry as equally 
professional and that sort of thing.
    Mr. Oberstar. We want to restore that relationship. That is 
the purpose of my legislation. It has stimulated a very wide 
dialogue. It has spurred the Coast Guard, certainly Admiral 
Allen, into, as I described it earlier, homeland security 
protect the Coast Guard mode if not the homeland.
    I posed for him the Corps of Engineers model where you have 
a uniformed officer in charge of a very large seasoned, stable 
civilian staff.
    Now there are two models. One is take this function out of 
the Coast Guard, establish it in the Department of 
Transportation in the mode that it was prior to World War II as 
a completely civilianized operation.
    Another is to establish a sort of Corps of Engineers model 
where you have an entirely civilian staff of seasoned, 
experienced professionals who can digest those documents, apply 
them, know the industry, work with the industry in the 
Prevention Through People and honoring the mariners. You put it 
so well.
    Have a uniformed officer in charge who is there for more 
than two years but with a civilian staff, would that work? 
Would that work within the Coast Guard?
    Would the other model work better outside of the Coast 
Guard?
    Mr. Lauridsen. Mr. Chairman.
    Mr. Oberstar. All of you have skirted that issue.
    [Laughter.]
    Mr. Oberstar. I don't think I understated the issue one bit 
when I said to Admiral Allen that he scared the living 
daylights out of you.
    Mr. Lauridsen. Mr. Chairman, I am a product of the blended 
workforce. Some of the civilians I worked with are behind me. 
Military and civilian mix can work and can work very well. I 
think there are certain capabilities, responsibilities that 
civilians possess that augment or enhance or are synergistic 
couplings with the Coast Guard.
    You point to those books up there, sir, and I can tell you 
that people can memorize those word for word for word and will 
still not be marine inspectors. Marine inspectors have not only 
an understanding of the regulations, but they have an 
experience base so that when it says the OCMI has a choice, 
that they can make those sorts of decisions.
    Mr. Oberstar. There is an instinctive quality to that 
service, you are saying.
    Mr. Lauridsen. Yes, sir. There is a maturing. There is a 
progressive maturing. There is a mentoring. There is an 
exchange of experiences and ideas, yes, sir.
    I guess I didn't answer which Corps of Engineers or 
whatever.
    Mr. Oberstar. You are not picking a model for me.
    Let me ask Mr. LaTourette if one or the other model is more 
appealing.
    [Laughter.]
    Mr. LaTourette. Well, Mr. Chairman.
    Mr. Oberstar. Not to be definitive but just to get your 
thoughts about it.
    Mr. LaTourette. I kind of like the Corps of Engineers 
model. As a result of this hearing, I like what the Admiral, 
the Commandant had to say about coming back to us with a plan 
in 60 days and beefing up the civilian side. At least, that is 
what I understood him to say.
    Mr. Oberstar. But he doesn't need 60 days. He has had 30 
years experience in this.
    I asked him to give me a response to our bill. He said, I 
will come back in a month. I said, you can do it in a week, and 
he did.
    Mr. LaTourette. Right. Well, if the Chairman would yield, 
the Coast Guard can be intimidating and so can you. I will 
withhold my other observations.
    [Laughter.]
    Mr. Oberstar. Not at all. Thank you.
    Mr. Wells. Mr. Chairman.
    Mr. Cummings. Yes.
    Mr. Wells. We like the idea of a blended workforce. The 
great thing about civilians is their longevity. The wrong thing 
with civilians is if you have the wrong civilian, he never 
leaves. And so, the only cautionary is it didn't work well with 
the RECs where you had an officer in charge and civilians who 
never left.
    We like a blend.
    Part of the answer to I think what you are driving at is in 
the old days when the inspection force was really humming, 
there were these veterans who were in supervisory roles. When 
the guy in the field had a question, he could go to someone 
over him who knew the answer. That model is disappearing.
    That is critical that we get back to that model where the 
people who are in charge understand the topic and understand 
the ins and outs of it.
    Mr. Oberstar. Reflect on that thought is what I ask each of 
you to do and give us a succinct response, just a couple of 
paragraphs, in the next week or so because, frankly, I intend 
to withhold action on the Coast Guard authorization until we 
get this issue resolved.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. LaTourette.
    Mr. LaTourette. Mr. Chairman, given the pending votes on 
the floor, I want to thank our witnesses very much for coming 
and withhold my questions.
    I would like permission to perhaps submit a couple 
questions in writing to them for follow-up later. In 
particular, Mr. Cox, I was concerned about your observation 
about having some uniformity of inspection procedures between 
districts and even between offices, and those are the types of 
questions I would like to propound.
    But given the lateness of the hour and I respect these 
gentlemen's time, I don't want you to wait another hour for us 
to come back and ask you 10 minutes of questions. So you go 
with our thanks and if I, with your permission, can follow up 
with a couple questions.
    Mr. Cummings. Yes, that is fine, and what I will be doing 
is doing the same.
    Gentlemen, first of all, I want to thank you for your 
testimony. It has been extremely helpful. I have a few 
questions, but I will submit them in writing.
    Thank you very much to all of you. This has been extremely 
important to us.
    As you can see, our Chairman is a can-do kind of guy, and 
he has set just an awesome agenda for us. I told him the other 
day, I have never been busier in my life.
    What we are trying to do, and I give him a lot of credit 
for it, is take on these problems. Some of them are very, very 
complex and very difficult, but he has made it clear that he 
wants us to tackle every single problem so that the maritime 
industry and our Coast Guard can have the best environment to 
work in possible and so, of course, the Coast Guard can do its 
job. Commerce can move along and we can, at the same time, 
protect our environment and make sure that the environment is 
safe for our mariners.
    Mr. Chairman, did you have a last word?
    Thank you all very much, and this hearing comes to an end.
    [Whereupon, at 6:02 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T7368.018
    
    [GRAPHIC] [TIFF OMITTED] T7368.019
    
    [GRAPHIC] [TIFF OMITTED] T7368.020
    
    [GRAPHIC] [TIFF OMITTED] T7368.021
    
    [GRAPHIC] [TIFF OMITTED] T7368.022
    
    [GRAPHIC] [TIFF OMITTED] T7368.023
    
    [GRAPHIC] [TIFF OMITTED] T7368.024
    
    [GRAPHIC] [TIFF OMITTED] T7368.025
    
    [GRAPHIC] [TIFF OMITTED] T7368.026
    
    [GRAPHIC] [TIFF OMITTED] T7368.027
    
    [GRAPHIC] [TIFF OMITTED] T7368.028
    
    [GRAPHIC] [TIFF OMITTED] T7368.029
    
    [GRAPHIC] [TIFF OMITTED] T7368.030
    
    [GRAPHIC] [TIFF OMITTED] T7368.031
    
    [GRAPHIC] [TIFF OMITTED] T7368.032
    
    [GRAPHIC] [TIFF OMITTED] T7368.033
    
    [GRAPHIC] [TIFF OMITTED] T7368.034
    
    [GRAPHIC] [TIFF OMITTED] T7368.035
    
    [GRAPHIC] [TIFF OMITTED] T7368.036
    
    [GRAPHIC] [TIFF OMITTED] T7368.037
    
    [GRAPHIC] [TIFF OMITTED] T7368.038
    
    [GRAPHIC] [TIFF OMITTED] T7368.039
    
    [GRAPHIC] [TIFF OMITTED] T7368.040
    
    [GRAPHIC] [TIFF OMITTED] T7368.041
    
    [GRAPHIC] [TIFF OMITTED] T7368.042
    
    [GRAPHIC] [TIFF OMITTED] T7368.043
    
    [GRAPHIC] [TIFF OMITTED] T7368.044
    
    [GRAPHIC] [TIFF OMITTED] T7368.045
    
    [GRAPHIC] [TIFF OMITTED] T7368.046
    
    [GRAPHIC] [TIFF OMITTED] T7368.047
    
    [GRAPHIC] [TIFF OMITTED] T7368.048
    
    [GRAPHIC] [TIFF OMITTED] T7368.049
    
    [GRAPHIC] [TIFF OMITTED] T7368.050
    
    [GRAPHIC] [TIFF OMITTED] T7368.051
    
    [GRAPHIC] [TIFF OMITTED] T7368.052
    
    [GRAPHIC] [TIFF OMITTED] T7368.053
    
    [GRAPHIC] [TIFF OMITTED] T7368.054
    
    [GRAPHIC] [TIFF OMITTED] T7368.055
    
    [GRAPHIC] [TIFF OMITTED] T7368.056
    
    [GRAPHIC] [TIFF OMITTED] T7368.057
    
    [GRAPHIC] [TIFF OMITTED] T7368.058
    
    [GRAPHIC] [TIFF OMITTED] T7368.059
    
    [GRAPHIC] [TIFF OMITTED] T7368.060
    
    [GRAPHIC] [TIFF OMITTED] T7368.061
    
    [GRAPHIC] [TIFF OMITTED] T7368.062
    
    [GRAPHIC] [TIFF OMITTED] T7368.063
    
    [GRAPHIC] [TIFF OMITTED] T7368.064
    
    [GRAPHIC] [TIFF OMITTED] T7368.065
    
    [GRAPHIC] [TIFF OMITTED] T7368.066
    
    [GRAPHIC] [TIFF OMITTED] T7368.067
    
    [GRAPHIC] [TIFF OMITTED] T7368.068
    
    [GRAPHIC] [TIFF OMITTED] T7368.069
    
    [GRAPHIC] [TIFF OMITTED] T7368.070
    
    [GRAPHIC] [TIFF OMITTED] T7368.071
    
    [GRAPHIC] [TIFF OMITTED] T7368.072
    
    [GRAPHIC] [TIFF OMITTED] T7368.073
    
    [GRAPHIC] [TIFF OMITTED] T7368.074
    
    [GRAPHIC] [TIFF OMITTED] T7368.075
    
    [GRAPHIC] [TIFF OMITTED] T7368.076
    
    [GRAPHIC] [TIFF OMITTED] T7368.077
    
    [GRAPHIC] [TIFF OMITTED] T7368.078
    
    [GRAPHIC] [TIFF OMITTED] T7368.079
    
    [GRAPHIC] [TIFF OMITTED] T7368.080
    
    [GRAPHIC] [TIFF OMITTED] T7368.081
    
    [GRAPHIC] [TIFF OMITTED] T7368.082
    
    [GRAPHIC] [TIFF OMITTED] T7368.083
    
    [GRAPHIC] [TIFF OMITTED] T7368.084
    
    [GRAPHIC] [TIFF OMITTED] T7368.085
    
    [GRAPHIC] [TIFF OMITTED] T7368.086
    
    [GRAPHIC] [TIFF OMITTED] T7368.087
    
    [GRAPHIC] [TIFF OMITTED] T7368.088
    
    [GRAPHIC] [TIFF OMITTED] T7368.089
    
    [GRAPHIC] [TIFF OMITTED] T7368.090
    
    [GRAPHIC] [TIFF OMITTED] T7368.091
    
    [GRAPHIC] [TIFF OMITTED] T7368.092
    
    [GRAPHIC] [TIFF OMITTED] T7368.093
    
    [GRAPHIC] [TIFF OMITTED] T7368.094
    
    [GRAPHIC] [TIFF OMITTED] T7368.095
    
    [GRAPHIC] [TIFF OMITTED] T7368.096
    
    [GRAPHIC] [TIFF OMITTED] T7368.097
    
    [GRAPHIC] [TIFF OMITTED] T7368.098
    
    [GRAPHIC] [TIFF OMITTED] T7368.099
    
    [GRAPHIC] [TIFF OMITTED] T7368.100
    
    [GRAPHIC] [TIFF OMITTED] T7368.101
    
    [GRAPHIC] [TIFF OMITTED] T7368.102
    
    [GRAPHIC] [TIFF OMITTED] T7368.103
    
    [GRAPHIC] [TIFF OMITTED] T7368.104
    
    [GRAPHIC] [TIFF OMITTED] T7368.105
    
    [GRAPHIC] [TIFF OMITTED] T7368.106
    
    [GRAPHIC] [TIFF OMITTED] T7368.107
    
    [GRAPHIC] [TIFF OMITTED] T7368.108
    
    [GRAPHIC] [TIFF OMITTED] T7368.109
    
    [GRAPHIC] [TIFF OMITTED] T7368.110
    
    [GRAPHIC] [TIFF OMITTED] T7368.111
    
    [GRAPHIC] [TIFF OMITTED] T7368.112
    
    [GRAPHIC] [TIFF OMITTED] T7368.113
    
    [GRAPHIC] [TIFF OMITTED] T7368.114
    
    [GRAPHIC] [TIFF OMITTED] T7368.115
    
    [GRAPHIC] [TIFF OMITTED] T7368.116
    
    [GRAPHIC] [TIFF OMITTED] T7368.117
    
    [GRAPHIC] [TIFF OMITTED] T7368.118
    
    [GRAPHIC] [TIFF OMITTED] T7368.119
    
    [GRAPHIC] [TIFF OMITTED] T7368.120
    
    [GRAPHIC] [TIFF OMITTED] T7368.121
    
    [GRAPHIC] [TIFF OMITTED] T7368.122
    
    [GRAPHIC] [TIFF OMITTED] T7368.123
    
    [GRAPHIC] [TIFF OMITTED] T7368.124
    
    [GRAPHIC] [TIFF OMITTED] T7368.125
    
    [GRAPHIC] [TIFF OMITTED] T7368.126
    
    [GRAPHIC] [TIFF OMITTED] T7368.127
    
    [GRAPHIC] [TIFF OMITTED] T7368.128
    
    [GRAPHIC] [TIFF OMITTED] T7368.129
    
    [GRAPHIC] [TIFF OMITTED] T7368.130
    
    [GRAPHIC] [TIFF OMITTED] T7368.131
    
    [GRAPHIC] [TIFF OMITTED] T7368.132
    
    [GRAPHIC] [TIFF OMITTED] T7368.133
    
    [GRAPHIC] [TIFF OMITTED] T7368.134
    
    [GRAPHIC] [TIFF OMITTED] T7368.135
    
    [GRAPHIC] [TIFF OMITTED] T7368.136
    
    [GRAPHIC] [TIFF OMITTED] T7368.137
    
    [GRAPHIC] [TIFF OMITTED] T7368.138
    
    [GRAPHIC] [TIFF OMITTED] T7368.139
    
    [GRAPHIC] [TIFF OMITTED] T7368.140
    
    [GRAPHIC] [TIFF OMITTED] T7368.141
    
    [GRAPHIC] [TIFF OMITTED] T7368.142
    
    [GRAPHIC] [TIFF OMITTED] T7368.143
    
    [GRAPHIC] [TIFF OMITTED] T7368.144
    
    [GRAPHIC] [TIFF OMITTED] T7368.145
    
    [GRAPHIC] [TIFF OMITTED] T7368.146
    
    [GRAPHIC] [TIFF OMITTED] T7368.147
    
    [GRAPHIC] [TIFF OMITTED] T7368.148
    
    [GRAPHIC] [TIFF OMITTED] T7368.149
    
    [GRAPHIC] [TIFF OMITTED] T7368.150
    
    [GRAPHIC] [TIFF OMITTED] T7368.151
    
    [GRAPHIC] [TIFF OMITTED] T7368.152
    
    [GRAPHIC] [TIFF OMITTED] T7368.153
    
    [GRAPHIC] [TIFF OMITTED] T7368.154
    
    [GRAPHIC] [TIFF OMITTED] T7368.155
    
    [GRAPHIC] [TIFF OMITTED] T7368.156
    
    [GRAPHIC] [TIFF OMITTED] T7368.157
    
    [GRAPHIC] [TIFF OMITTED] T7368.158
    
    [GRAPHIC] [TIFF OMITTED] T7368.159
    
    [GRAPHIC] [TIFF OMITTED] T7368.160
    
    [GRAPHIC] [TIFF OMITTED] T7368.161
    
    [GRAPHIC] [TIFF OMITTED] T7368.162
    
    [GRAPHIC] [TIFF OMITTED] T7368.163
    
    [GRAPHIC] [TIFF OMITTED] T7368.164
    
    [GRAPHIC] [TIFF OMITTED] T7368.165
    
    [GRAPHIC] [TIFF OMITTED] T7368.166
    
    [GRAPHIC] [TIFF OMITTED] T7368.167
    
    [GRAPHIC] [TIFF OMITTED] T7368.168
    
    [GRAPHIC] [TIFF OMITTED] T7368.169
    
    [GRAPHIC] [TIFF OMITTED] T7368.170
    
    [GRAPHIC] [TIFF OMITTED] T7368.171
    
    [GRAPHIC] [TIFF OMITTED] T7368.172
    
    [GRAPHIC] [TIFF OMITTED] T7368.173
    
    [GRAPHIC] [TIFF OMITTED] T7368.174
    
    [GRAPHIC] [TIFF OMITTED] T7368.175
    
    [GRAPHIC] [TIFF OMITTED] T7368.176
    
    [GRAPHIC] [TIFF OMITTED] T7368.177
    
    [GRAPHIC] [TIFF OMITTED] T7368.178
    
    [GRAPHIC] [TIFF OMITTED] T7368.179
    
    [GRAPHIC] [TIFF OMITTED] T7368.180
    
    [GRAPHIC] [TIFF OMITTED] T7368.181
    
    [GRAPHIC] [TIFF OMITTED] T7368.182
    
    [GRAPHIC] [TIFF OMITTED] T7368.183
    
    [GRAPHIC] [TIFF OMITTED] T7368.184
    
    [GRAPHIC] [TIFF OMITTED] T7368.185
    
    [GRAPHIC] [TIFF OMITTED] T7368.186
    
    [GRAPHIC] [TIFF OMITTED] T7368.187
    
    [GRAPHIC] [TIFF OMITTED] T7368.188
    
    [GRAPHIC] [TIFF OMITTED] T7368.189
    
    [GRAPHIC] [TIFF OMITTED] T7368.190
    
    [GRAPHIC] [TIFF OMITTED] T7368.191
    
    [GRAPHIC] [TIFF OMITTED] T7368.192
    
    [GRAPHIC] [TIFF OMITTED] T7368.193
    
    [GRAPHIC] [TIFF OMITTED] T7368.194
    
    [GRAPHIC] [TIFF OMITTED] T7368.195
    
    [GRAPHIC] [TIFF OMITTED] T7368.196
    
    [GRAPHIC] [TIFF OMITTED] T7368.197
    
    [GRAPHIC] [TIFF OMITTED] T7368.198
    
    [GRAPHIC] [TIFF OMITTED] T7368.199
    
    [GRAPHIC] [TIFF OMITTED] T7368.200
    
    [GRAPHIC] [TIFF OMITTED] T7368.201
    
    [GRAPHIC] [TIFF OMITTED] T7368.202
    
    [GRAPHIC] [TIFF OMITTED] T7368.203
    
    [GRAPHIC] [TIFF OMITTED] T7368.204
    
    [GRAPHIC] [TIFF OMITTED] T7368.205
    
    [GRAPHIC] [TIFF OMITTED] T7368.206
    
    [GRAPHIC] [TIFF OMITTED] T7368.207
    
    [GRAPHIC] [TIFF OMITTED] T7368.208
    
    [GRAPHIC] [TIFF OMITTED] T7368.209
    
    [GRAPHIC] [TIFF OMITTED] T7368.210
    
    [GRAPHIC] [TIFF OMITTED] T7368.211
    
    [GRAPHIC] [TIFF OMITTED] T7368.212
    
    [GRAPHIC] [TIFF OMITTED] T7368.213
    
    [GRAPHIC] [TIFF OMITTED] T7368.214
    
    [GRAPHIC] [TIFF OMITTED] T7368.215
    
    [GRAPHIC] [TIFF OMITTED] T7368.216
    
    [GRAPHIC] [TIFF OMITTED] T7368.217
    
    [GRAPHIC] [TIFF OMITTED] T7368.218
    
    [GRAPHIC] [TIFF OMITTED] T7368.219
    
    [GRAPHIC] [TIFF OMITTED] T7368.220
    
    [GRAPHIC] [TIFF OMITTED] T7368.221
    
    [GRAPHIC] [TIFF OMITTED] T7368.222
    
    [GRAPHIC] [TIFF OMITTED] T7368.223
    
    [GRAPHIC] [TIFF OMITTED] T7368.224
    
    [GRAPHIC] [TIFF OMITTED] T7368.225
    
    [GRAPHIC] [TIFF OMITTED] T7368.226
    
    [GRAPHIC] [TIFF OMITTED] T7368.227
    
    [GRAPHIC] [TIFF OMITTED] T7368.228
    
    [GRAPHIC] [TIFF OMITTED] T7368.229
    
    [GRAPHIC] [TIFF OMITTED] T7368.230
    
    [GRAPHIC] [TIFF OMITTED] T7368.231
    
    [GRAPHIC] [TIFF OMITTED] T7368.232
    
    [GRAPHIC] [TIFF OMITTED] T7368.233
    
    [GRAPHIC] [TIFF OMITTED] T7368.234
    
    [GRAPHIC] [TIFF OMITTED] T7368.235
    
    [GRAPHIC] [TIFF OMITTED] T7368.236
    
    [GRAPHIC] [TIFF OMITTED] T7368.237
    
    [GRAPHIC] [TIFF OMITTED] T7368.238
    
    [GRAPHIC] [TIFF OMITTED] T7368.239
    
    [GRAPHIC] [TIFF OMITTED] T7368.240
    
    [GRAPHIC] [TIFF OMITTED] T7368.241
    
    [GRAPHIC] [TIFF OMITTED] T7368.242
    
    [GRAPHIC] [TIFF OMITTED] T7368.243
    
    [GRAPHIC] [TIFF OMITTED] T7368.244
    
    [GRAPHIC] [TIFF OMITTED] T7368.245
    
    [GRAPHIC] [TIFF OMITTED] T7368.246
    
    [GRAPHIC] [TIFF OMITTED] T7368.247
    
    [GRAPHIC] [TIFF OMITTED] T7368.248
    
    [GRAPHIC] [TIFF OMITTED] T7368.249
    
    [GRAPHIC] [TIFF OMITTED] T7368.250
    
    [GRAPHIC] [TIFF OMITTED] T7368.251
    
    [GRAPHIC] [TIFF OMITTED] T7368.252
    
    [GRAPHIC] [TIFF OMITTED] T7368.253
    
    [GRAPHIC] [TIFF OMITTED] T7368.254
    
    [GRAPHIC] [TIFF OMITTED] T7368.255
    
    [GRAPHIC] [TIFF OMITTED] T7368.256
    
    [GRAPHIC] [TIFF OMITTED] T7368.257
    
    [GRAPHIC] [TIFF OMITTED] T7368.258
    
    [GRAPHIC] [TIFF OMITTED] T7368.259
    
    [GRAPHIC] [TIFF OMITTED] T7368.260
    
    [GRAPHIC] [TIFF OMITTED] T7368.261
    
    [GRAPHIC] [TIFF OMITTED] T7368.262
    
    [GRAPHIC] [TIFF OMITTED] T7368.263
    
    [GRAPHIC] [TIFF OMITTED] T7368.264
    
    [GRAPHIC] [TIFF OMITTED] T7368.265
    
    [GRAPHIC] [TIFF OMITTED] T7368.266
    
    [GRAPHIC] [TIFF OMITTED] T7368.267
    
    [GRAPHIC] [TIFF OMITTED] T7368.268
    
    [GRAPHIC] [TIFF OMITTED] T7368.269
    
    [GRAPHIC] [TIFF OMITTED] T7368.270
    
    [GRAPHIC] [TIFF OMITTED] T7368.271
    
    [GRAPHIC] [TIFF OMITTED] T7368.272
    
    [GRAPHIC] [TIFF OMITTED] T7368.273
    
    [GRAPHIC] [TIFF OMITTED] T7368.274
    
    [GRAPHIC] [TIFF OMITTED] T7368.275
    
    [GRAPHIC] [TIFF OMITTED] T7368.276
    
    [GRAPHIC] [TIFF OMITTED] T7368.277
    
    [GRAPHIC] [TIFF OMITTED] T7368.278
    
    [GRAPHIC] [TIFF OMITTED] T7368.279
    
    [GRAPHIC] [TIFF OMITTED] T7368.280
    
    [GRAPHIC] [TIFF OMITTED] T7368.281
    
    [GRAPHIC] [TIFF OMITTED] T7368.282
    
    [GRAPHIC] [TIFF OMITTED] T7368.283
    
    [GRAPHIC] [TIFF OMITTED] T7368.284
    
    [GRAPHIC] [TIFF OMITTED] T7368.285
    
    [GRAPHIC] [TIFF OMITTED] T7368.286
    
    [GRAPHIC] [TIFF OMITTED] T7368.287
    
    [GRAPHIC] [TIFF OMITTED] T7368.288
    
    [GRAPHIC] [TIFF OMITTED] T7368.289
    
    [GRAPHIC] [TIFF OMITTED] T7368.290
    
    [GRAPHIC] [TIFF OMITTED] T7368.291
    
    [GRAPHIC] [TIFF OMITTED] T7368.292
    
    [GRAPHIC] [TIFF OMITTED] T7368.293
    
    [GRAPHIC] [TIFF OMITTED] T7368.294
    
    [GRAPHIC] [TIFF OMITTED] T7368.295
    
    [GRAPHIC] [TIFF OMITTED] T7368.296
    
    [GRAPHIC] [TIFF OMITTED] T7368.297
    
    [GRAPHIC] [TIFF OMITTED] T7368.298
    
    [GRAPHIC] [TIFF OMITTED] T7368.299
    
    [GRAPHIC] [TIFF OMITTED] T7368.300
    
    [GRAPHIC] [TIFF OMITTED] T7368.301
    
    [GRAPHIC] [TIFF OMITTED] T7368.302
    
    [GRAPHIC] [TIFF OMITTED] T7368.303
    
    [GRAPHIC] [TIFF OMITTED] T7368.304
    
    [GRAPHIC] [TIFF OMITTED] T7368.305
    
    [GRAPHIC] [TIFF OMITTED] T7368.306
    
    [GRAPHIC] [TIFF OMITTED] T7368.307
    
    [GRAPHIC] [TIFF OMITTED] T7368.308
    
    [GRAPHIC] [TIFF OMITTED] T7368.309
    
    [GRAPHIC] [TIFF OMITTED] T7368.310
    
    [GRAPHIC] [TIFF OMITTED] T7368.311
    
    [GRAPHIC] [TIFF OMITTED] T7368.312
    
    [GRAPHIC] [TIFF OMITTED] T7368.313
    
    [GRAPHIC] [TIFF OMITTED] T7368.314
    
    [GRAPHIC] [TIFF OMITTED] T7368.315
    
    [GRAPHIC] [TIFF OMITTED] T7368.316
    
    [GRAPHIC] [TIFF OMITTED] T7368.317
    
    [GRAPHIC] [TIFF OMITTED] T7368.318
    
    [GRAPHIC] [TIFF OMITTED] T7368.319
    
    [GRAPHIC] [TIFF OMITTED] T7368.320
    
    [GRAPHIC] [TIFF OMITTED] T7368.321
    
    [GRAPHIC] [TIFF OMITTED] T7368.322
    
    [GRAPHIC] [TIFF OMITTED] T7368.323
    
    [GRAPHIC] [TIFF OMITTED] T7368.324
    
    [GRAPHIC] [TIFF OMITTED] T7368.325
    
    [GRAPHIC] [TIFF OMITTED] T7368.326
    
    [GRAPHIC] [TIFF OMITTED] T7368.327
    
    [GRAPHIC] [TIFF OMITTED] T7368.328
    
    [GRAPHIC] [TIFF OMITTED] T7368.329
    
    [GRAPHIC] [TIFF OMITTED] T7368.330
    
    [GRAPHIC] [TIFF OMITTED] T7368.331
    
    [GRAPHIC] [TIFF OMITTED] T7368.332
    
    [GRAPHIC] [TIFF OMITTED] T7368.333
    
    [GRAPHIC] [TIFF OMITTED] T7368.334
    
    [GRAPHIC] [TIFF OMITTED] T7368.335
    
    [GRAPHIC] [TIFF OMITTED] T7368.336
    
    [GRAPHIC] [TIFF OMITTED] T7368.337
    
    [GRAPHIC] [TIFF OMITTED] T7368.338
    
    [GRAPHIC] [TIFF OMITTED] T7368.339
    
    [GRAPHIC] [TIFF OMITTED] T7368.340
    
    [GRAPHIC] [TIFF OMITTED] T7368.341
    
    [GRAPHIC] [TIFF OMITTED] T7368.342
    
    [GRAPHIC] [TIFF OMITTED] T7368.343
    
    [GRAPHIC] [TIFF OMITTED] T7368.344
    
    [GRAPHIC] [TIFF OMITTED] T7368.345
    
    [GRAPHIC] [TIFF OMITTED] T7368.346
    
    [GRAPHIC] [TIFF OMITTED] T7368.347
    
    [GRAPHIC] [TIFF OMITTED] T7368.348
    
    [GRAPHIC] [TIFF OMITTED] T7368.349
    
    [GRAPHIC] [TIFF OMITTED] T7368.350
    
    [GRAPHIC] [TIFF OMITTED] T7368.351
    
    [GRAPHIC] [TIFF OMITTED] T7368.352
    
    [GRAPHIC] [TIFF OMITTED] T7368.353
    
    [GRAPHIC] [TIFF OMITTED] T7368.354
    
    [GRAPHIC] [TIFF OMITTED] T7368.355
    
    [GRAPHIC] [TIFF OMITTED] T7368.356
    
    [GRAPHIC] [TIFF OMITTED] T7368.357
    
    [GRAPHIC] [TIFF OMITTED] T7368.358
    
    [GRAPHIC] [TIFF OMITTED] T7368.359
    
    [GRAPHIC] [TIFF OMITTED] T7368.360
    
    [GRAPHIC] [TIFF OMITTED] T7368.361
    
    [GRAPHIC] [TIFF OMITTED] T7368.362
    
    [GRAPHIC] [TIFF OMITTED] T7368.363
    
    [GRAPHIC] [TIFF OMITTED] T7368.364
    
    [GRAPHIC] [TIFF OMITTED] T7368.365
    
    [GRAPHIC] [TIFF OMITTED] T7368.366
    
    [GRAPHIC] [TIFF OMITTED] T7368.367
    
    [GRAPHIC] [TIFF OMITTED] T7368.368
    
    [GRAPHIC] [TIFF OMITTED] T7368.369
    
    [GRAPHIC] [TIFF OMITTED] T7368.370
    
    [GRAPHIC] [TIFF OMITTED] T7368.371
    
    [GRAPHIC] [TIFF OMITTED] T7368.372
    
    [GRAPHIC] [TIFF OMITTED] T7368.373
    
    [GRAPHIC] [TIFF OMITTED] T7368.374
    
    [GRAPHIC] [TIFF OMITTED] T7368.375
    
    [GRAPHIC] [TIFF OMITTED] T7368.376
    
    [GRAPHIC] [TIFF OMITTED] T7368.377
    
    [GRAPHIC] [TIFF OMITTED] T7368.378
    
    [GRAPHIC] [TIFF OMITTED] T7368.379
    
    [GRAPHIC] [TIFF OMITTED] T7368.380
    
    [GRAPHIC] [TIFF OMITTED] T7368.381
    
    [GRAPHIC] [TIFF OMITTED] T7368.382
    
    [GRAPHIC] [TIFF OMITTED] T7368.383
    
    [GRAPHIC] [TIFF OMITTED] T7368.384
    
    [GRAPHIC] [TIFF OMITTED] T7368.385
    
    [GRAPHIC] [TIFF OMITTED] T7368.386
    
    [GRAPHIC] [TIFF OMITTED] T7368.387
    
    [GRAPHIC] [TIFF OMITTED] T7368.388
    
    [GRAPHIC] [TIFF OMITTED] T7368.389
    
    [GRAPHIC] [TIFF OMITTED] T7368.390
    
    [GRAPHIC] [TIFF OMITTED] T7368.391
    
    [GRAPHIC] [TIFF OMITTED] T7368.392
    
    [GRAPHIC] [TIFF OMITTED] T7368.393
    
    [GRAPHIC] [TIFF OMITTED] T7368.394
    
    [GRAPHIC] [TIFF OMITTED] T7368.395
    
    [GRAPHIC] [TIFF OMITTED] T7368.396
    
    [GRAPHIC] [TIFF OMITTED] T7368.397
    
    [GRAPHIC] [TIFF OMITTED] T7368.398
    
    [GRAPHIC] [TIFF OMITTED] T7368.399
    
    [GRAPHIC] [TIFF OMITTED] T7368.400
    
    [GRAPHIC] [TIFF OMITTED] T7368.401
    
    [GRAPHIC] [TIFF OMITTED] T7368.402
    
    [GRAPHIC] [TIFF OMITTED] T7368.403
    
    [GRAPHIC] [TIFF OMITTED] T7368.404
    
    [GRAPHIC] [TIFF OMITTED] T7368.405
    
    [GRAPHIC] [TIFF OMITTED] T7368.406
    
    [GRAPHIC] [TIFF OMITTED] T7368.407
    
    [GRAPHIC] [TIFF OMITTED] T7368.408
    
    [GRAPHIC] [TIFF OMITTED] T7368.409
    
    [GRAPHIC] [TIFF OMITTED] T7368.410
    
    [GRAPHIC] [TIFF OMITTED] T7368.411
    
    [GRAPHIC] [TIFF OMITTED] T7368.412
    
    [GRAPHIC] [TIFF OMITTED] T7368.413
    
    [GRAPHIC] [TIFF OMITTED] T7368.414
    
    [GRAPHIC] [TIFF OMITTED] T7368.415
    
    [GRAPHIC] [TIFF OMITTED] T7368.416
    
    [GRAPHIC] [TIFF OMITTED] T7368.417
    
    [GRAPHIC] [TIFF OMITTED] T7368.418
    
    [GRAPHIC] [TIFF OMITTED] T7368.419
    
    [GRAPHIC] [TIFF OMITTED] T7368.420
    
    [GRAPHIC] [TIFF OMITTED] T7368.421
    
    [GRAPHIC] [TIFF OMITTED] T7368.422
    
    [GRAPHIC] [TIFF OMITTED] T7368.423
    
    [GRAPHIC] [TIFF OMITTED] T7368.424
    
    [GRAPHIC] [TIFF OMITTED] T7368.425
    
    [GRAPHIC] [TIFF OMITTED] T7368.426
    
    [GRAPHIC] [TIFF OMITTED] T7368.427
    
    [GRAPHIC] [TIFF OMITTED] T7368.428
    
    [GRAPHIC] [TIFF OMITTED] T7368.429
    
    [GRAPHIC] [TIFF OMITTED] T7368.430
    
    [GRAPHIC] [TIFF OMITTED] T7368.431
    
    [GRAPHIC] [TIFF OMITTED] T7368.432
    
    [GRAPHIC] [TIFF OMITTED] T7368.433
    
    [GRAPHIC] [TIFF OMITTED] T7368.434
    
    [GRAPHIC] [TIFF OMITTED] T7368.435
    
    [GRAPHIC] [TIFF OMITTED] T7368.436
    
    [GRAPHIC] [TIFF OMITTED] T7368.437
    
    [GRAPHIC] [TIFF OMITTED] T7368.438
    
    [GRAPHIC] [TIFF OMITTED] T7368.439
    
    [GRAPHIC] [TIFF OMITTED] T7368.440
    
    [GRAPHIC] [TIFF OMITTED] T7368.441
    
    [GRAPHIC] [TIFF OMITTED] T7368.442
    
    [GRAPHIC] [TIFF OMITTED] T7368.443
    
    [GRAPHIC] [TIFF OMITTED] T7368.444
    

</pre></body></html>
